<html>
<title> - OVERSIGHT HEARING: EXAMINING EPA'S PROPOSED CARBON DIOXIDE EMISSIONS RULES FROM NEW, MODIFIED, AND EXISTING POWER PLANTS</title>
<body><pre>[Senate Hearing 114-19]
[From the U.S. Government Publishing Office]







                                                         S. Hrg. 114-19
 
                   OVERSIGHT HEARING: EXAMINING EPA'S
                   PROPOSED CARBON DIOXIDE EMISSIONS
                     RULES FROM NEW, MODIFIED, AND
                         EXISTING POWER PLANTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
     94-978 PDF                  WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
                                 (II)
                                 
                                 
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                      WEDNESDAY, FEBRUARY 11, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     7
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................    93

                               WITNESSES

McCabe, Janet , Acting Assistant Administrator for the Office of 
  Air and Radiation, U.S. Environmental Protection Agency........    14
    Prepared statement...........................................    17
Responses to additional questions from:
    Senator Inhofe...............................................    23
    Senator Booker...............................................    25
    Senator Fischer..............................................    27
    Senator Sessions.............................................    28
    Senator Sullivan.............................................    30
    Senator Vitter...............................................    32

                          ADDITIONAL MATERIAL

Senate Climate Change Legistation Vote History...................    94
Articles:
    DataLab; Every President's executive Orders in One Chart.....    95
    NASA; NASA, NOAA find 2014 Warmest Year in Modern Record.....    97
    Regional Greenhouse Gas Initiative...........................   103
    The American Presidency Project; Executive Orders............   105
    World Meteorological Organization............................   107
    The New York Times; Most Republicans Say They Back Climate 
      Action, Poll Finds.........................................   111
    The Washington Post; Inhofe's misleading statements on carbon 
      emissions rule.............................................   115
U.S. Senate Roll Call Votes 114th Congress - 1st Session:
    On the Amendment (Hoeven Amdt. No. 87, As Modified)..........   120
    On the Amendment (Schatz Amdt. No. 58).......................   123
    On the Amendment (Whitehouse Amdt. No. 29)...................   126


 OVERSIGHT HEARING: EXAMINING EPA'S PROPOSED CARBON DIOXIDE EMISSIONS 
          RULES FROM NEW, MODIFIED, AND EXISTING POWER PLANTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:03 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Vitter, Barrasso, Capito, Crapo, 
Boozman, Wicker, Fischer, Rounds, Sullivan, Boxer, Carper, 
Cardin, Whitehouse, Merkley, Gillibrand, Booker, and Markey.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Let me get the unpopular stuff out of the 
way first. Let me assure my friends on the Democratic side that 
Senator Boxer did everything she could to change the minds of 
the Majority on opening statements.
    Quite often, I can remember going as long as 2 hours on 
opening statements while our witnesses came from far away, had 
to sit and wait. Instead of that, we are going to have longer 
time for questions so if individuals want to combine that with 
opening statements, they can do that.
    We are using the early bird rule. I will start with an 
opening statement.
    Administrator McCabe, it is very nice to have you here and 
we are looking forward to working with you.
    By mid-summer, your office plans to finalize three separate 
rules to reduce carbon dioxide emissions at power plants, which 
according to your own testimony before the House Energy and 
Power Subcommittee on June 19, 2014, does nothing to save us 
from global warming.
    That is a quote I will use when it is my turn for questions 
so that people won't question the accuracy of that.
    No one should be surprised. We have been here before. 
NASA's Dr. James Hansen, the father of global warming theory, 
said the Kyoto Protocol will have a little effect on global 
temperatures in the 21st century and it would take 30 Kyotos, 
his words, not mine, to reduce warming.
    Even when Secretary Chu contradicted Lisa Jackson in July 
2009, she was the director of the EPA at that time, she 
honestly testified that U.S. action would not impact world 
CO<INF>2</INF> levels.
    You don't have to go back to that time because I asked her 
that question sitting right here. I said, we if we are to pass 
any of these cap and trade bills at that time, would this have 
the effect of reducing CO<INF>2</INF> emissions worldwide? She 
said no, it would not because this isn't where the problem is. 
The problem is China, India and so forth. We all know that.
    I am going to try to go through this and try to get these 
points across. Then we will hear from Senator Boxer.
    Also, by mid-summer, Ms. McCabe, your office plans to 
complete the Small Business Advocacy Review, issue a model 
Federal Implementation Plan and evaluate literally over 5 
million public comments to your proposed rules.
    The agency has already missed its first statutorily 
required deadline to finalize its new source proposal by 
January 8, 2015. I am interested to learn how the EPA expects 
States to comply with an expedited timeline the agency could 
not meet.
    It should not be a surprise that 31 States have now opposed 
the Clean Power Plan. Today is EPA's day but we will be 
inviting these 31 State representatives, the ones paying for 
all this stuff, the stakeholders, the ones who have to comply, 
to a hearing.
    In the meantime, we have number of problems with the 
proposals. I am concerned that your agency intends to impose 
the most expensive regulations in history, yet failed to 
achieve your own goals.
    According to the economic consulting and analysis firm, 
NERA, the Clean Power Plan alone, on existing power plants, 
would cost $73 billion a year and upwards of $469 billion over 
the next 15 years.
    It is hard to say on the new source because no one is going 
to be building a new coal plant. Those are the actual words of 
the President. He said, ``If someone wants to build a coal 
power plan, they can. It is just that it will bankrupt them.'' 
That is clearly the intent of this.
    What we are trying to do with regulation is what they have 
tried to do since 2002 through legislation. The first, we might 
remember, was the Byrd-Hagel rule in 1997. The vote on the 
Senate floor was 95-0 not to adopt a Kyoto type.
    Then we had the McCain-Lieberman bill in 2002, another 
McCain-Lieberman bill in 2005, and another bill with Lieberman 
in 2008. Every one of them went down in defeat in the Senate. 
These were all Senate bills. They went down in defeat by a 
greater margin.
    I think you are looking at something now that we want to 
hear how EPA is steamrolling ahead requesting billions of 
dollars in proposals which States reject, which ignores the 
will of Congress, which relies on unreasonable assumption, 
costs billions of dollars, will increase our energy bill, and 
not impact global warming.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Acting Administrator McCabe, thank you for taking the time 
to be here today. By mid-summer, your office plans to finalize 
three separate rules to reduce carbon dioxide emissions at 
power plants. According to your own testimony before the House 
Energy and Power Subcommittee on June 19, 2014, these rules do 
nothing to save us from global warming.
    No one should be surprised; we've been here before.

     NASA's Dr. James Hansen--the father of global warming 
theory--said himself that the Kyoto Protocol will have little 
effect on global temperature in the 21st century and that it 
will take 30 Kyotos to reduce warming.
     Lisa Jackson honestly testified that U.S. action would 
not impact world CO<INF>2</INF> levels, even after Secretary 
Chu had contradicted her at a July 7, 2009, EPW hearing.
     According to two recent analyses of the President's Clean 
Power Plan, it's been demonstrated that the initiative will 
only reduce the earth's temperature by 0.02 degrees Celsius by 
2100. Another study demonstrates that CO<INF>2</INF> 
concentrations will be reduced by less than 0.5 percent, global 
temperature rise will be reduced by 0.016 degree F, and sea 
level rise will be reduced by a 0.3 millimeter--or the 
thickness of three sheets of paper.

    Similarly, your office plans to complete a Small Business 
Advocacy Review, issue a model Federal Implementation Plan, and 
evaluate literally over 5 million public comments to your 
proposed rules by mid-summer,
    The agency has already missed its first statutorily 
required deadline to finalize its new source proposal by 
January 8, 2015. I'm interested to learn how the EPA expects 
states to comply with an expedited timeline the agency itself 
couldn't even meet.
    It should not be surprising that 31 States now oppose your 
Clean Power Plan. Today is EPA's day to testify, but we will 
invite these states to have their day before this Committee to 
explain their problems.
    In the meantime, I have a number of problems with these 
proposals. I am concerned that your agency intends to impose 
the most expensive regulation in history yet fail to achieve 
your goals. According to the economic consulting and analysis 
firm, NERA, the Clean Power Plan alone would cost as much as 
$73 billion per year and upwards of $469 billion over the next 
15 years. It's difficult to know what the new source 
performance standards would cost, however, because no one will 
build a new coal plant. We'll have to take the President at his 
word from his interview with the San Francisco Chronicle in 
January 8, when he said, ``So if somebody wants to build a coal 
power plant, they can. It's just that it will bankrupt them.'' 
Under the Clean Power Plan, at least 43 states will face double 
digit electricity price increases. The President is delivering 
on his campaign promise that under his Administration 
``electricity prices would necessarily skyrocket.''
    Additional impacts of the existing source rule include 
interruptions to the reliability of our nation's electrical 
grid. The Southwest Power Pool, which includes Oklahoma, 
reports the rule would result in ``cascading outages'' and 
``voltage collapse.'' The Clean Power Plan would also force the 
early retirement of coal-fired plants where operators have 
already made significant investments to install emissions 
control equipment in order to comply with other EPA 
regulations. Finally, this rule is an unprecedented attempt by 
the EPA to greatly expand its section 111 authority. This 
results in a Federal takeover of how we plan, develop, and 
consume energy in this country.
    Democrats may want to criticize him for submitting comments 
on behalf of Peabody Energy, but even Lawrence Tribe wrote in 
comments and in a Wall Street Journal op-ed, that he 
``concluded that the agency is asserting executive power far 
beyond its lawful authority.''
    The Byrd/Hagel vote in 1997 was 95-0, 2003 McCain-
Lieberman, 2005 McCain-Lieberman, and 2008 Warner-Lieberman all 
failed. Waxman-Markey was simply DOA in the Senate in 2009. I'm 
eager to hear why EPA is steamrolling ahead and requesting 
billions of dollars on these proposals. Not only do states 
reject them, but they ignore the will of Congress, rely on 
unreasonable assumptions, cost billions, increase our energy 
bills, and do nothing to impact global warming.

    Senator Boxer. Mr. Chairman, before we start the clock, I 
want to respond to this idea that nobody can make opening 
statements except you or me.
    I just think it is wrong. For 15 years, we all listened to 
each other. I want to lodge official opposition of the 
Democratic minority to limiting opening statements to the 
Chairman and the Ranking Member.
    With the goodwill we have, I hope we can continue to talk.
    Senator Inhofe. Let me respond to that before we start your 
clock rolling.
    We talked about that in our conference. We are the majority 
now. I recall you saying at one time that elections do have 
consequences, so some of these things are subject to change.
    My problem has always been many of the committees, such as 
the Senate Armed Services Committee, only have the Chairman and 
the Ranking Member making opening statements. These are large 
committees.
    I can remember sitting as long as 2 hours listening to each 
one of us talk and we have people coming in from California and 
long distances away. With 8 minute rounds, which are what we 
will have, I think each member can take half of that and use 
that if the member wants to. That is going to be the policy. I 
know you don't like it.
    Senator Boxer. No, we don't like it and don't like gagging 
members of this committee. I am sad about it. We have done it 
for 15 years. Also, part of it is, you and I get to question 
first.
    You speak 5 minutes, I speak 5 minutes, the witness speaks, 
you get 8 minutes, and I get 8 minutes. By the time we get to 
our members, it is noon.
    Senator Inhofe. I would probably not speak first, but go 
ahead.
    Senator Boxer. Good. Let us start the clock.
    Senator Cardin. Mr. Chairman, can I ask consent that my 
opening statement be included in the record?
    Senator Inhofe. Sure.
    [The prepared statement of Senator Cardin follows:]

           Statement of Hon Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Mr. Chairman, thank you for holding today's hearing on the 
EPA's proposed Clean Power Plan. In Maryland we are already 
seeing costly and destructive effects of Climate change and I 
fully support regulating carbon from existing power plants.
    With bi-partisan support, Congress passed the Clean Air Act 
that President Richard Nixon signed into law on the last day of 
the year in 1970. The Clean Air Act came about in response to 
devastating air pollution that made it nearly impossible to see 
the sky during certain times of the year in cities like Los 
Angeles, New York and my home town of Baltimore.
    After almost 45 years, the Clean Air Act has effectively 
helped cleanup the air in most major cities. The proof is in 
the decline of bad-air days we experience, particularly in the 
Mid-Atlantic and Northeast during the hot summer months. It 
used to be that in the DC-Baltimore metropolitan area during 
the 1970's, 1980's and 1990's, that anytime the temperature 
soared into the nineties we'd inevitable have ground level 
ozone levels so high that the National Weather Service would 
issue ``red alerts'' for air quality advising seniors, young 
children and persons with respiratory diseases like asthma to 
stay indoors.
    The Clean Air Act is working. The number of ``red alert'' 
and ``orange alert'' days have been in decline in recent years, 
despite our region experiencing some of the hottest summers on 
record since the start of this century.
    The U.S. economy has grown exponentially in the decades 
since the Clean Air Act was enacted, despite what the 
doomsayers have said with each regulation promulgated under the 
Act. The chorus of concerns and fear mongering with this rule 
is no different than any of the Clean Air Act rules that have 
preceded it, in every instance, just as this one, the U.S. has 
grown its economy and improved our environment, proving time 
and time again that a healthy environment and robust economy 
are not exclusive choices that we must make--we can and will 
have both.
    It's time to turn a new chapter in the Clean Air Act and I 
am proud of this administration's recognition to take bold 
action where others failed to do so.
    EPA's authority to regulate CO<INF>2</INF> under the Clean 
Air Act has been affirmed by the Supreme Court in two landmark 
Clean Air Act cases: Massachusetts v. EPA (2007), which 
affirmed EPA's standing to regulate GHGs under the Clean Air 
Act pending EPA's promulgation of an ``endangerment finding'' 
for GHGs.
    American Electric Power Company v. Connecticut (2011) was a 
unanimous SCOTUS decision which held that corporations cannot 
be sued for GHGs emissions under Federal common law, because 
the Clean Air Act delegates the management of GHGs emissions to 
the EPA--setting the stage for yesterday's rule.
    On remand from Massachusetts v. EPA, EPA found that six 
greenhouse gases, emitted from the combustion of carbon based 
fuels, ``in the atmosphere may reasonably be anticipated both 
to endanger public health and to endanger public welfare.''
    In Coalition for Responsible Regulation v. EPA, the 
petitioners sought judicial review of EPA's determination in 
the U.S. Court of Appeals, D.C. Circuit. On June 26, 2012, the 
court issued an opinion which dismissed the challenges to the 
EPA's endangerment finding and the related GHG regulations.
    The three-judge panel unanimously upheld the EPA's central 
finding that GHGs such as CO<INF>2</INF> endanger public health 
and are likely responsible for the global warming experienced 
over the past half century.
    The statutory authority granted under the 1970 Clean Air 
Act, and three Federal court decisions including two Supreme 
Court decisions, laid the legal groundwork for a commonsense 
approach to regulating carbon pollution under Section 111 of 
the Clean Air Act.
    Sec. 111 authorizes EPA to establish baseline performance 
standards for power plants, which in the case of this rule we 
are talking about achieving a 30 percent net reduction in 
carbon pollution from power plants, using 2005 as the baseline, 
by 2030.
    Moreover, the rule is flexible in how these ``performance 
standards'' are met by applying these standards broadly across 
each states' fleet of power plants, rather than demanding these 
reductions from each individual power plant.
    This approach to regulation puts states in control of how 
it's fleet of power generation facilities will these reduction 
targets. The performance standard is applied across all power 
generation facilities, including carbon intensive facilities 
like coal power plants, and zero emission power like nuclear, 
hydro and wind.
    Through this rule, solutions can be sought outside the 
fence, it may be possible for states to meet these standards 
through increased in-State development of renewable energy and 
improved energy efficiency standard, without having to shutdown 
or drastically change the operations of its coal power plants.
    The point is, states will be in control of how they will 
meet these standards and there are a wide variety of tools in 
the toolbox for states to use to meet these standards.
    Former Governor Martin O'Malley positioned Maryland to 
thrive under this rule through the State's participation in the 
Regional Greenhouse Gas Initiative (RGGI).
    Using RGGI as its model and approach for compliance with 
the rule, RGGI generates more than $200 million annually in 
revenues for Maryland, meaning compliance with this rule 
through will continue to bring needed revenues into the state. 
Moreover, electricity rates have stabilized in Maryland 
providing price certainty for ratepayers which would be 
unchanged under this rule so long as Maryland remains a RGGI 
state. Last, MD's regulated community understands and 
appreciates the regulatory certainty the RGGI has provided.
    That's why our state's largest electricity generator has 
submitted comments that support the goals of the proposed 
rules, while at the same time suggest how the rule may be 
improved to better accommodate nuclear power generation. I 
applaud Exelon's constructive participation and approach to the 
rulemaking process.
    I'm proud that Maryland's energy companies, like 
Constellation/Exelon are making investments to reduce the 
carbon output of its power generation fleet in Maryland and in 
the other states they are operating in.
    These early adopters made the correct investments and 
assumptions about where regulation was headed all based on 
information that everyone in the power generation sector had 
available. These leaders in the industry will thrive under the 
new certainty these rules will provide the industry.
    The actions taken by Maryland's power sector and State 
regulators show an understanding of how important addressing 
climate change is to Maryland. After all, it makes good 
business sense in Maryland for power providers to their part to 
reduce the causes of climate change, because 70 percent of the 
state's population, also known as ratepayers, lives in the 
coastal regions of the state.
    This gets to how climate change is impacting Maryland's 
economy and our way of life.
    Poultry is Maryland's number one agricultural product. 
Poultry dominates the Eastern Shore economy. Feed costs 
comprise more than 75 percent of the input cost of raising 
birds to market. 2012's record drought severely reduced our 
nation's corn supply.
    The drought, combined with the RFS's ethanol production 
mandate, pushed feed prices to record highs. The increased risk 
of drought that climate change presents adds instability to 
Maryland's poultry industry.
    At a recent event in Dorchester County, farmers remarked 
that they are noticing a change in their growing season and 
they feel their way of life is threatened by climate change.
    Another fixture of Maryland's economy is Maryland's 
watermen, who are continuing the centuries' old traditions of 
harvesting the bounty of the Chesapeake Bay. Lately though, the 
quality of the Bay's bounty in a constant State of flux as 
warmer waters and increased intensity of storms is changing the 
ecology of the Bay.
    Eelgrass, which provides important habitat for the Bay's 
iconic Blue Crabs, died out almost completely during the 
record-hot summers of 2005 and 2010. This year crab population 
projections are anticipated to be low, due in large part to 
this winter's series of polar vortexes, caused by instability 
in the upper atmosphere that normally keeps massive cold air 
masses better centered to the North in the Winter.
    When Blue Crab populations suffer Maryland's watermen 
suffer, our coastal communities suffer and Maryland's seafood 
industry more broadly suffers.
    Moreover, the Port of Baltimore is an economic engine in 
the State of Maryland and the Mid-Atlantic region on the whole. 
The Port supports thousands of dockside jobs in Baltimore, and 
the commerce going in and out of the port supports tens of 
thousands of jobs across the Eastern United States. Sea level 
rise threatens the productivity of the Port and the safety and 
utility of the harbor infrastructure at the Port of Baltimore.
    The tourism industry is directly affected by climate 
change. People love to come to our State to hunt and fish. One 
of the most valuable assets we have along the bay is the 
Blackwater National Wildlife Refuge.
    The recovery of the American Bald Eagle is no more evident 
than at Blackwater National Wildlife Refuge where there are 
more than 100 resident Bald Eagles in the refuge.
    Blackwater is at risk. It is important for tourism, and it 
is important for our environment. It is also the land in which 
Harriet Tubman led freedom seekers along the Underground 
Railroad, so it has a tremendous historic significance as well. 
Yet, between 1938 and 2006, the refuge has lost 5,000 acres of 
marshland to open water, and that is accelerating. It is not 
slowing down. If we don't reverse the impacts of climate 
change, we are going to see a more dramatic impact on those 
types of treasures in Maryland and nationally.
    There is no denying that carbon gases in our atmosphere 
trap heat which has helped make our planet hospitable to life 
for billions of years. The carbon in the atmosphere that keep 
our planet hospitable is the same carbon that is emitted into 
the atmosphere from tailpipes and smokestacks.
    As a global society we have burned billions of tons of 
carbon based fossil fuels over the decades, while also 
shrinking the size of natural carbon sinks like forests. As a 
result the natural balance of carbon in our atmosphere is out 
of sync.
    The average atmospheric and surface temperatures on Earth 
are rising. More heat is being trapped and we are seeing the 
effects of these changes in our atmosphere in changing weather 
patterns and the increased intensity of weather events, and 
weather driven events, like wild fires, droughts, floods, and 
super cell storm systems.
    The overwhelming scientific consensus, 97 percent of 
climate scientists, among experts doing field research have 
come to determine that climate change is real and manmade.
    In the media and in Congress there is an inherent interest 
in presenting a balanced view point on issues.
    Each side gets its witnesses and advocates, which is fine 
and good for a political debate, but we're not debating 
politics. We are debating scientific findings in which there an 
overwhelming, 97 percent, consensus among scientists agree that 
the data shows climate change is real.
    U.S. leadership on reducing global carbon pollution is long 
overdue. While it is unfortunate that Congress will continue to 
bicker over this sentinel issue facing generations to come, at 
least we will know show other leaders around the world that the 
U.S. is a serious partners in tackling this threat.
    I am encouraged by the prospect of new economic growth 
potential from clean energy development and stand ready to make 
Maryland and the U.S. a leader into the future.

    The Chair. All opening statements will be made a part of 
the record.
    Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, today's oversight hearing will 
examine the critically important steps that the Obama 
administration is taking to address climate change by reducing 
dangerous carbon pollution from the biggest source, power 
plants.
    They account for 40 percent of all carbon pollution 
released into the air and we are seeing the consequences. Let 
us look at the trends across the Country.
    It is official. The year 2014 was the hottest year in 
recorded history and was earth's warmest year on record. How 
hot was it, 2014 was earth's warmest year on record as data 
shows.
    Everyone can say whatever they want. They can say it is 
cold and it is snowing. We all know all the facts. For goodness 
sakes, how out of step can people be with the scientists and 
the people of this Country who are so far ahead?
    NASA and NOAA found that in 134 years of recordkeeping, no 
year has been hotter around the globe than 2014. The 
President's proposal will enable America to lead the way to 
avert the most calamitous impacts of climate change such as sea 
level rise, dangerous heat waves and economic disruption to our 
farmers, to our businesses, to our tourist industry and to our 
people.
    I often say if people cannot breathe, they cannot work or 
go to school. We know this particular proposal will avoid up to 
3,700 cases of bronchitis in children, 150,000 asthma attacks, 
3,300 heart attacks, 6,600 premature deaths and 490,000 missed 
days at school.
    Who are we working for, the people of this Country or the 
polluters? I think that is the question. The Obama 
administration gets it and so do the American people.
    Let us look at a new Stanford University poll which found 
that 83 percent of Americans, including 61 percent of 
Republicans, say if nothing is done to reduce carbon pollution, 
global warming will be a serious problem into the future. 
Seventy-seven percent of Americans of all political stripes say 
the Federal Government should be doing a substantial amount to 
combat climate change.
    Last year, this committee heard from four former EPA 
Administrators, all Republicans who served under Presidents 
Nixon and George W. Bush. They all agreed that climate change 
requires action now and it should not be a partisan issue. I 
thought for sure that would change some minds on my Republican 
side. Not one mind was changed.
    The President's plan relies on the authorities under the 
Clean Air Act, which was created with an overwhelming 
bipartisan consensus that I yearn for today. In 1970, the Clean 
Air Act passed the Senate by a vote of 73 to zero, passed the 
House by 375 to 1, and was signed into law by President Nixon.
    The Clean Air Act has a proven track record of success. 
President Obama is building on that success. I often say in all 
the years I have been in office, a long time, no one ever 
complained that the air was too clean. Oh, gee, Barbara, the 
air is just clean enough; don't do anything more. They want us 
to keep cleaning up the air.
    My home State has been a leader in proving you can reduce 
carbon pollution and grow this economy. California households 
pay the ninth lowest electricity bills and the per person 
carbon footprint is among the lowest in the Country.
    We also added 491,000 jobs in the first year of the State's 
cap and trade system, a job growth rate of 3.3 percent, better 
than the national rate of 2.5 percent. Over the last 4 years, 
we have turned a $26 billion budget deficit into a projected $4 
billion surplus.
    Do not tell me that if you move forward on clean air, you 
destroy the economy or destroy your budget. It is quite the 
opposite.
    Climate change is happening now. We cannot afford to wait. 
I commend the President and the EPA for taking action to 
protect our families and our children from the worse impacts.
    In the time remaining, I ask unanimous consent to place 
into the record, the article in today's Washington Post.
    Senator Inhofe. Without objection.
    Senator Boxer. Thank you, Mr. Chairman.
    [The referenced information follows:]
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. It says, Studies on Modifying Climate Urge, 
Geo-engineering Would Be a Risky Last Resort Scientists Say. I 
urge everyone to read this.
    We don't need this brave new world of geo-engineering. We 
can move forward on the policies the President has put forward 
and that Republican Presidents have put forward. Let us move 
ahead and do the right thing for our children, our families and 
our Nation.
    [The prepared statement of Senator Boxer follows:]
    Senator Inhofe. Thank you.
    We will now turn to our witness, Janet McCabe, Acting 
Assistant Administrator for the Office of Air and Radiation, 
U.S. Environmental Protection Agency.

  STATEMENT OF JANET MCCABE, ACTING ASSISTANT ADMINISTRATOR, 
  OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. McCabe. Thank you, Chairman Inhofe, Ranking Member 
Boxer and members of the committee. Thank you for the 
opportunity to testify today.
    Climate change is one of the greatest challenges of our 
time. It already threatens human health and welfare and 
economic wellbeing, and if left unchecked, it will have 
devastating impacts on the United States and the planet.
    The science is clear, the risks are clear and the high 
costs of climate inaction are clear. We must act. That's why 
President Obama laid out a Climate Action Plan and why this 
summer the EPA will be taking flexible, common-sense steps to 
cut carbon pollution from the power sector.
    These steps will help build a more resilient nation, and 
lead the world in our global climate fight. Beginning in 
January 2014, EPA has issued three proposals to address 
CO<INF>2</INF> emissions from power plants.
    These rules will set standards for CO<INF>2</INF> emissions 
from new, existing and modified and reconstructed fossil fuel-
fired power plants. As we announced in January, the EPA intends 
to finalize these three rules by mid-summer 2015.
    EPA's stakeholder outreach and public engagement in 
preparation for these rulemakings has been unprecedented and 
has resulted in an unprecedented amount of public input. We are 
currently reviewing the roughly two million comments received 
on the proposal for new sources and the more than 3.5 million 
comments we received on the proposals for existing, modified 
and reconstructed sources.
    As we work our way through the comments, what is completely 
apparent is not only the time and effort the States and our 
many stakeholders have put into developing their input, but the 
importance we, as a country, place on moving forward to address 
climate change. This input is especially important given the 
important role the States will play in this program.
    We have received comment on a range of crucial issues from 
the investments these rules might require to maintain 
reliability, a consideration we view with the utmost importance 
in implementing all clean air protections, to costs, the right 
levels of stringency, and establishing a workable glide path 
that will bring about success in moving to a less carbon 
intensive energy production while safeguarding a reliable and 
affordable supply of electricity for all communities, 
businesses and consumers.
    Many comments identify opportunities to drive investment in 
innovative clean technologies and energy efficiency, as well as 
reiterating the importance of the emissions reductions in 
addressing climate change and improving air quality and public 
health.
    We are addressing and accounting for all of the information 
and ideas received on the three separate proposals and we are 
confident that the final rules will be improved as a result of 
this input.
    While EPA is firmly focused on the work needed over the 
next few months to finalize rules that take into account all of 
the input we received, we remain deeply committed to continuing 
our engagement with States, tribes, utilities, stakeholders, 
other Federal agencies, resource planning organizations and 
others.
    As part of this process, we know that States are beginning 
to think about the very real task of drafting and developing 
State plans that will be used to implement the final Clean 
Power Plan when it is issued. We are preparing to provide 
States the assistance they will need as they begin to develop 
their State plans.
    That is why we are also starting a rulemaking process to 
develop a rule that both would set forth a proposed Federal 
plan and, by providing a model, could help States to think 
about their plans.
    I want to be clear that EPA's strong preference, as is 
always, is that States will submit their own plans, tailored to 
their specific needs and priorities. We believe States will 
want to do that here, but we also know that setting out a 
Federal plan is an important step to ensure that our Clean Air 
Act obligations are fulfilled.
    At the same time, we believe that many States will find it 
helpful to be able to examine a Federal plan proposal as they 
begin to develop their own compliance plans. Indeed, they have 
told us so. That is why we are aiming to issue the Federal plan 
proposal in mid-summer as well.
    When fully implemented, the Clean Power Plan is expected to 
help deliver 730 million tons of reduction in CO<INF>2</INF> 
emissions, a substantial reduction of harmful pollution. 
Moreover, it will also lead to thousands of fewer heart attacks 
and tens of thousands fewer asthma attacks and other health 
benefits as well.
    These reductions will deliver tens of billions of dollars 
in public health and climate benefits that far outweigh the 
estimated annual costs of the plan. The soot and smog 
reductions that will be achieved along with reductions in 
carbon pollution alone will yield $7 in health benefits for 
every dollar we invest in meeting the standards.
    Because energy efficiency is such a smart, cost effective 
strategy, we predict that, in 2030, average electricity bills 
for American families will be 8 percent cheaper than they are 
projected to be without the Clean Power Plan.
    When he unveiled his Climate Action Plan in June 2013, 
President Obama made clear that among his goals was not only 
achieving meaningful reductions in domestic greenhouse gas 
emissions, but also asserting leadership in the international 
effort to combat climate change.
    We believe that the Clean Power Plan will fulfill our 
obligations under the Clean Air Act to protect communities from 
dangerous air pollution. At the same time, it is a significant 
component of the Administration's broad-based set of actions 
that have achieved and will continue to achieve significant 
reductions in greenhouse gas emissions.
    There is evidence that the Clean Power Plan has spurred 
progress and commitment from other countries and has advanced 
the international discussion as a whole. We are confident that 
all o this can be achieved in a way that strengthens the 
economy and creates new jobs here at home.
    I look forward to your questions. Thank you very much.
    [The prepared statement of Ms. McCabe follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
                                ------                                


           Responses by Janet McCabe to Additional Questions 
                          from Senator Inhofe

    Question 1. In 2013, four nuclear reactors prematurely closed. One 
of those reactors was the Kewaunee plant in Wisconsin. When EPA set the 
reduction target for Wisconsin, it did so based on electricity 
production in 2012, a year in which Kewaunee was still operating.
    a. This means Wisconsin will be forced to meet a more stringent 
target, correct?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. Nuclear energy can help the U.S. meet its goals to reduce carbon 
pollution and meet clean air standards. The EPA is currently reviewing 
the more than 4.3 million comments received on the proposal, including 
comments about specific nuclear units and specific Electric Generating 
Units (EGUs), and will continue to consider this and other comments 
raised as we develop the requirements for the final Clean Power Plan.

    Question 2. There are currently five nuclear reactors under 
construction, in Georgia, South Carolina and Tennessee. Since they are 
under construction, they clearly did NOT produce electricity in 2012. 
However, the congressional Research Service found that EPA's plan 
``substantially lowers'' the targets in those states to account for 
their investments in nuclear power, making their targets more stringent 
and harder to achieve.
    a. Did EPA similarly penalize states with wind projects under 
construction, assuming their existence in setting targets for those 
states, making those states' targets harder to achieve?
    b. Why does nuclear energy receive such arbitrary treatment?
     c. Shouldn't EPA treat hydropower, nuclear power, and other 
sources of zero-emission electricity the same?
    d. If states rely upon new reactors in their State Implementation 
Plans under the proposed rule, will EPA penalize the states if the NRC 
refuses to allow those reactors to begin operating?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. Nuclear energy can help the U.S. meet its goals to reduce carbon 
pollution and meet clean air standards. In the proposal, we requested 
comment on approaches to nuclear power, including considering five 
under-construction nuclear units at three plants and providing an 
incentive to preserve nuclear power generation at existing plants 
across the country. Many commenters have provided information, 
including that they would like equitable treatment of the Best System 
of Emission Reduction (BSER) requirements across states and in 
particular would like similar treatment among the low-and zero-emitting 
sources of power. We have engaged in outreach to numerous stakeholders 
about nuclear power, renewable energy, and other low-and zero-emitting 
sources of power to better understand issues raised in their comments 
and we are giving careful consideration to all comments received as we 
develop the requirements for the final Clean Power Plan.

    Question 3. Economic modeling of climate legislation by EPA, EIA, 
and others has consistently shown that dramatic growth in nuclear 
energy is necessary to reduce carbon emissions and that constrained 
development of nuclear energy dramatically increases the costs of 
compliance. If fact, in 2008, EPA determined that 44 new reactors would 
be needed by 2025 to satisfy the requirements of S. 2191, known as the 
Lieberman-Warner bill. In 2009, EIA determined that 96 gigawatts of new 
nuclear capacity would be needed by 2030 under H.R. 2454, the Waxman-
Markey bill.
    a. How many new reactor licenses are actively being reviewed by the 
NRC?
    b. How many new reactors, in addition to those currently under 
construction, are necessary to enable compliance under EPA's base case 
for the proposed rule?
    c. How does EPA plan to meet its carbon emission reductions without 
increasing the use of nuclear energy or even replacing the units that 
currently provide the bulk of our carbon-free electricity?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. The requirements of the proposed Clean Power Plan differ to a 
great extent from the elements that constituted both the Lieberman-
Warner bill and the Waxman-Markey bill. In the Clean Power Plan 
proposal, we considered the impact of nuclear power as part of the 
energy mix for consideration of the proposed elements of the rule and 
requested public comment. The five nuclear units that commenced 
construction prior to issuance of the proposal were considered existing 
plants at the time of proposal and we have received several comments on 
this determination. New nuclear units were not projected or 
incorporated into the setting of the proposed BSER.
    The EPA also notes that the proposed Clean Power Plan builds on 
what states are already doing to reduce carbon pollution from existing 
power plants. The Clean Power Plan empowers states to chart their own, 
customized path to meet their goals in a manner that is sensitive to 
each state's unique circumstances. We are aware of six applications for 
new licenses under active review at the Nuclear Regulatory Commission. 
In addition, we have met with Georgia, South Carolina, and Tennessee on 
several occasions to discuss the proposed requirements for facilities 
under construction and we are giving careful consideration to all 
comments received as we develop the requirements for the final Clean 
Power Plan.

    Question 4. For states that do not submit a State implementation 
plan, what mechanisms of enforcement will the EPA rely to impose a 
Federal plan under the Clean Power Plan proposal? Please provide the 
statutory cite by which EPA will rely for each enforcement mechanism. 
Will EPA depend on 3d party environmental groups to file suits against 
the states to push enforcement? Would EPA make compliance with the 
Clean Air Act a requisite for Federal permits? If so, what permits?
    Response. Under Section 111(d) the EPA is proposing a two-part 
process where the EPA sets state-specific goals to lower carbon 
pollution from power plants, and then the states must develop plans to 
meet those goals. States develop plans to meet their goals, but EPA is 
not prescribing a specific set of measures for states to put in their 
plans. This gives states flexibility. States will choose what measures, 
actions, and requirements to include in their plans, and demonstrate 
how these will result in the needed reductions. The Clean Air Act 
provides for EPA to write a Federal plan if a State does not put an 
approvable State plan in place. In response to requests from states and 
stakeholders since the proposed Clean Power Plan was issued, EPA 
announced in January 2015 that we will be starting the regulatory 
process to develop a rule that would set forth a proposed Federal plan 
and could provide an example for states as they develop their own 
plans. EPA's strong preference remains for states to submit their own 
plans that are tailored to their specific needs and priorities. The 
agency expects to issue the proposed Federal plan for public review and 
comment in summer 2015.

    Question 5. In response to a question from Sen. Wicker about 
stranded assets, Acting Assistant Administrator McCabe testified that 
EPA is being careful ``not to put plants in a position of stranding 
assets.'' Please explain what specific steps EPA has proposed--or is 
contemplating--to avoid stranding assets and investments existing 
facilities have made to comply with Clean Air Act and other 
environmental requirements.
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. Instead, states have the 
flexibility to choose their own compliance pathways, including avoiding 
stranded assets. Following publication of the proposed rule, EPA 
published a Notice of Data Availability [79 FR 64543, October 30, 2014] 
that provided additional information on certain issues that had been 
consistently raised by a diverse set of stakeholders, including ideas 
about the glide path of emission reductions from 2020-2029 and other 
topics that have been identified as potentially related to the 
remaining asset value of existing coal-fired generation.

    Question 6. Acting Assistant Administrator McCabe also testified 
that EPA is working with State regulators to see whether there is 
flexibility ``to provide a path'' for avoiding stranding assets. Please 
identify which states you are working with on this issue, and describe 
the ``potential paths'' being discussed.
    Response. The outreach to and response from the public on the Clean 
Power Plan has been unprecedented, including outreach to and feedback 
from stakeholders from all 50 states. More than 4.3 million comments 
have been submitted and EPA is examining and carefully considering all 
the issues raised in those comments.

    Question 7. Please provide a detailed explanation of the 
flexibility afforded to states by the Clean Air Act and EPA's 111(d) 
implementing regulations (40 C.F.R. part 60, subpart B) to grant 
variances to specific facilities allowing for different emission 
standards and longer compliance periods without increasing the burden 
on other facilities within the state.
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs, 
including requiring different standards from different individual 
sources.

    Question 8. Please identify with specificity the factors, other 
than plant age, location, design, or remaining useful life, that states 
may consider under 40 C.F.R. 60.24(f)(3) in determining when a less 
stringent standard or final compliance time is ``significantly more 
reasonable.'' Would the fact that a plant recently made significant 
capital expenditures to install pollution controls to comply with Clean 
Air Act programs qualify for relief under 40 C.F.R. 60.24(f)(3)? If so, 
under what circumstances? If not, why?
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs, 
including requiring different standards from different individual 
sources.

    Question 9. In the preamble to the proposed Clean Power Plan, EPA 
states that ``the flexibility provided in the State plan development 
process adequately allows for consideration of the remaining useful 
life of the affected facilities and other source-specific factors and, 
therefore, that separate application of the remaining useful life 
provision by states is unnecessary.'' In other words, EPA appears to be 
saying that because EPA has provided flexibility in State plans, states 
are prohibited from further consideration of remaining useful lives and 
other factors for facilities within their state. Please explain with 
specificity EPA's legal authority for limiting State flexibility in 
this way, including why such a restriction is not inconsistent with 
Clean Air Act section 111(d)(1), which provides that EPA ``regulations 
shall permit the State in applying a standard of performance to take 
into consideration, among other factors, the remaining useful life of 
the existing source.'' (Emphasis added).
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
issues in the State planning process. That document can be found using 
Docket ID Number EPA-HQ-OAR-2013-0602-0419. The EPA is currently 
reviewing the more than 4.3 million comments received on the proposal, 
including the comments on the issues addressed in the Legal Memorandum, 
and will respond to the issues raised in those comments when we issue a 
final Clean Power Plan.

    Question 10. EPA further provides in the preamble to the proposed 
rule that, `to the extent that a performance standard that a State may 
wish to adopt for affected EGUs raises facility-specific issues, the 
State is free to make adjustments to a particular facility's 
requirements on facility-specific grounds, so long as any such 
adjustments are reflected (along with any necessary compensating 
emission reductions) as part of the state's CAA section 111(d) plan 
submission.'' Please explain with specificity EPA's legal authority for 
conditioning states' variance authority in this way. Also, please 
explain how such a restriction is not inconsistent with CAA section 
111(d) and would not restrict a state's flexibility to avoid stranding 
assets.
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
issues in the State planning process. That document can be found using 
Docket ID Number EPA-HQ-OAR-2013-0602-0419. The EPA is currently 
reviewing the more than 4.3 million comments received on the proposal, 
including the comments on the issues addressed in the legal memorandum, 
and will respond to the issues raised in those comments when we issue a 
final Clean Power Plan.
           Responses by Janet McCabe to Additional Questions 
                          from Senator Booker
    Question 1. Nuclear power plants currently provide 60 percent of 
the nation's emissions-free power generation, and are especially 
important in states like New Jersey. Many of these existing power 
plants are under market pressures that could lead them to be replaced 
with emitting generation. The Clean Power Plan proposal attempts to 
address existing nuclear power by factoring 6 percent of emissions-free 
nuclear generation into each state's target. In most states, including 
New Jersey, this provides a negligible incentive to avoid replacing 
this generation with gas.
    a. What changes are the EPA exploring to ensure the Clean Power 
Plan strongly encourages states to maintain nuclear generation as a 
critical resource?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. Nuclear energy can help the U.S. meet its goals to reduce carbon 
pollution and meet clean air standards. The EPA is currently reviewing 
the more than 4.3 million comments received on the proposal, including 
comments about specific nuclear units and specific EGUs, and will 
continue to consider this and other comments raised as we develop the 
requirements for the final Clean Power Plan.

    Question 2. After the Clean Power Plan is finalized this year, 
states will be able to comply with it by designing state-specific plans 
that are responsive to State and local needs.
    a. As states design their implementation plans, what flexibility 
will they have to support existing nuclear power beyond any mechanisms 
or crediting specifically included in the proposed rule?
    b. Will there be ways states can specifically encourage nuclear 
units to operate beyond their initial licensing periods, to the extent 
units can do so safely?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. Nuclear energy can help the U.S. meet its goals to reduce carbon 
pollution and meet clean air standards. In the proposal, the EPA 
proposed to determine that finalizing construction of five new nuclear 
units at three plants and preserving nuclear power generation at 
existing plants across the country could be two cost-effective ways to 
avoid emissions from fossil fuel-fired power plants. One of the goals 
of the Clean Power Plan is to afford states the flexibility they 
require to meet the goals. The Clean Power Plan empowers the states to 
chart their own, customized path to meet their goals in a manner that 
is sensitive to the unique circumstances in each state. States may 
employ strategies, if they so choose, to encourage nuclear power. The 
EPA is currently reviewing the more than 4.3 million comments received 
on the proposal, including the comments on the treatment of nuclear 
power, and will respond to the issues raised in those comments when we 
issue a final Clean Power Plan.

    Question 3. I have heard concerns about unintended consequences 
that could arise from the Clean Power Plan as proposed. Specifically, 
the dramatic early reduction requirements proposed in the rule may 
render several coal plants uneconomic, and therefore encourage states 
to turn to the rapid deployment of new natural gas combined cycle 
generation to satisfy their energy needs. Large amounts of new natural 
gas power plants have the potential to disincentivize construction of 
renewable and other clean energy technology for decades because states 
can comply with the Plan from the reduced carbon emissions from natural 
gas power plants. This has the potential to tilt the playing field in 
the power sector toward new natural gas fired power plant at the 
expense of renewable energy.
    a. Can the EPA avoid the potential prioritization of power from 
natural gas power plants and encourage states to adopt renewable and 
clean energy technology?
    b. Can you please provide me with an update on some of the 
modifications EPA is considering to ensure that the final Plan 
incentivizes the use of renewables to the maximum extent possible?
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals.
    Following publication of the proposed rule, EPA published a Notice 
of Data Availability [79 FR 64543, October 30, 2014] that provided 
additional information on certain issues that had been consistently 
raised by a diverse set of stakeholders, including ideas about the 
glide path of emission reductions from 2020-2029.

    Question 4. Minority communities, including communities of color, 
are disproportionately affected by pollution. With President Clinton's 
1994 Executive Order 12898, and President Obama's continued support for 
that executive order, the environmental justice movement has grown in 
the past couple of decades. The EPA, with the Clean Power Plan, has a 
unique platform to tackle issues of environmental justice and equity.
    a. Is the EPA contemplating requiring states to consider the 
environmental justice impacts of their State implementation plans in 
order to comply with the Clean Power Plan?
    b. If not, why not?
    c. If so, will the EPA offer states guidance on ways to measure 
compliance for the environmental justice impacts of states' 
implementation plans?
    Response. During our extensive outreach process, EPA met with 
environmental justice advocates and community leaders. The EPA is 
currently reviewing the more than 4.3 million comments received on the 
proposal, including comments about the proposal's consideration of 
environmental justice issues, and will respond to the issues raised in 
those comments when we issue a final Clean Power Plan.
           Responses by Janet McCabe to Additional Questions 
                          from Senator Fischer
                building block 1 (coal plant efficiency)
     During our discussion at the hearing regarding Building Block 1 
and the achievable heat rate improvements at coal-fired plants, you 
stated that EPA's assumption in going into the proposal ``was not that 
every single source would be able to achieve exactly the amount of 
reductions [you] identified in each building block[you] believed that 
some can do more in one area and some may choose to do less in other 
areas.'' In Nebraska, there are no coal-fired power plants that are 
capable of achieving a heat rate improvement of 6 percent. Did EPA 
receive public comment from any utilities or State departments of 
environmental quality that identified any plant of being able to 
achieve this rate improvement? Or a rate that is more than the target 
identified by EPA?
     Do you acknowledge that EPA misused the Sargent & Lundy study in 
setting the heat rate improvement goals for Building Block 1?
     Installation of additional pollution control equipment will 
degrade a unit's heat rate performance. Given that regulations such as 
MATS and Regional Haze are driving the installation of more control 
equipment on coal-fired units, what type of adjustments will be made in 
the rule to account for such EPA-driven degradations?

    Response. In the proposed Clean Power Plan, the EPA proposed four 
Building Blocks that make up the ``best system of emission reduction 
adequately demonstrated'' (BSER) that, in turn, serves as the basis for 
the State CO<INF>2</INF> emissions goals. The EPA discussed its 
justification for why those measures, including the heat rate 
improvement you mentioned which we identified as Building Block 1, 
qualify as part of the BSER to reduce emissions at regulated sources at 
length in the preamble for the proposed rule (79 Fed. Reg. 34,830, 
34,878--34,892), the GHG Abatement Measures Technical Support Document 
(http://www2.epa.gov/sites/production/files/2014-06/documents/
20140602tsd-ghg-abatement-measures.pdf), and the accompanying Legal 
Memorandum (Docket ID Number EPA-HQ-OAR-2013-0602-0419, pages 33-93). 
The EPA is currently reviewing the more than 4.3 million comments 
received on the proposal, including the comments on the issues 
addressed in the Technical Support Documents and the Legal Memorandum, 
and will respond to the issues raised in those comments when we issue a 
final Clean Power Plan.
             building block 2 (natural gas cc utilization)
     Nebraska DEQ stated in its public comments that a 70 percent 
utilization rate at natural gas plants is neither sustainable, nor 
achievable. Nebraska does not have adequate natural gas supplies or 
pipeline infrastructure to sustain a 70 percent utilization rate of 
existing natural gas combined-cycle plants, particularly during colder 
months.2 FERC memos indicate that last April, FERC's Office of Electric 
Reliability told EPA that its assumptions in building block 2 
overestimated natural gas combined cycle capacity factors and that FERC 
``had doubts about the ability to expand the pipeline infrastructure as 
quickly as the emission targets implied.''3 Why didn't EPA go back and 
fix those assumptions based on FERC's feedback?
    Response. In the proposed Clean Power Plan, the EPA proposed four 
Building Blocks that make up the ``best system of emission reduction 
adequately demonstrated'' (BSER) that, in turn, serves as the basis for 
the State CO<INF>2</INF> emissions goals. The EPA discussed its 
justification for why those measures, including the natural gas 
capacity factor you mentioned, qualify as part of the BSER to reduce 
emissions at regulated sources at length in the preamble for the 
proposed rule (79 Fed. Reg. 34,830, 34,878--34,892), the GHG Abatement 
Measures Technical Support Document (http://www2.epa.gov/sites/
production/files/2014-06/documents/20140602tsd-ghg-abatement-
measures.pdf), and the accompanying Legal Memorandum (Docket ID Number 
EPA-HQ-OAR-2013-0602-0419, pages 33-93). The EPA is currently reviewing 
the more than 4.3 million comments received on the proposal, including 
the comments on the issues addressed in the Technical Support Documents 
and the Legal Memorandum, and will respond to the issues raised in 
those comments when we issue a final Clean Power Plan.
                     building block 3 (renewables)
     The Nebraska Department of Environmental Quality thinks that its 
``disingenuous'' to require states to undertake measures that the EPA 
itself may not have the authority to implement. What authority does EPA 
or the Nebraska DEQ have to mandate renewables?
    Response. In the proposal, the EPA estimated the potential 
renewable energy available to states as part of BSER by developing a 
scenario based on Renewable Portfolio Standard (RPS) requirements 
already established by a majority of states. The basis for Building 
Block three is discussed at length in the preamble to the proposal (79 
FR 34830-34950) and the GHG Abatement Measures Technical Support 
Document (http://www2.epa.gov/sites/production/files/2014-06/documents/
20140602tsd-ghg-abatement-measures.pdf). EPA does not propose to 
require the inclusion of any particular type of measures as plans are 
developed for meeting the State goal. Instead, states are empowered to 
chart their own, customized paths to meet their goals.
    Under Section 111(d) the EPA is proposing a two-part process where 
the EPA sets state-specific goals to lower carbon pollution from power 
plants, and then the states must develop plans to meet those goals. 
States develop plans to meet their goals, but EPA is not prescribing a 
specific set of measures for states to put in their plans. This gives 
states flexibility. States will choose what measures, actions, and 
requirements to include in their plans, and demonstrate how these will 
result in the needed reductions.
                            interim targets
     In December, I led a group of 23 Republican Senators in writing 
to EPA regarding key concerns with the proposed Clean Power Plan. 
Senator McCaskill led a parallel letter that was sent by a group of 
Democrat Senators raising the same concerns, including the unrealistic 
interim targets (known as the ``2020 cliff''). The consequences of 
these front-loaded targets have been echoed by many stakeholders. Will 
you commit to removing these interim targets?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. Instead, states have the 
flexibility to choose their own compliance pathways. Following 
publication of the proposed rule, the EPA published a Notice of Data 
Availability [79 FR 64543, October 30, 2014] that provided additional 
information on certain issues that had been consistently raised by a 
diverse set of stakeholders, including ideas about the glide path of 
emission reductions from 2020-2029. The EPA is currently reviewing the 
more than 4.3 million comments received on the proposal, including the 
comments on the issues addressed in the Technical Support Documents and 
the legal memorandum, and will respond to the issues raised in those 
comments when we issue a final Clean Power Plan.
                                  rfs
     As you know, renewable fuels like ethanol and biodiesel are an 
important economic driver in my state. Unfortunately, the EPA has yet 
to release their yearly volumes for both 2014 and 2015. When do you 
plan to release this rule? Will it no longer contain methodology that 
artificially limits the market access of biofuels producers?
    Response. EPA has issued a proposed rule to establish renewable 
fuels volumes for 2014, 2015, and 2016, as well as biodiesel for 2017; 
the proposal was published in the Federal Register on June 10, 2015.
           Responses by Janet McCabe to Additional Questions 
                         from Senator Sessions
    Question 1. In your written testimony, you State that if climate 
change is left unchecked, it will have ``devastating impacts on the 
United States and the planet.'' You write further that ``the costs of 
inaction are clear. We must act. That's why President Obama laid out a 
Climate Action Plan.''
    a. Does the United States Constitution authorize the executive 
branch to act unilaterally and impose regulatory mandates due to 
``inaction,'' or the absence of a valid authorization from Congress?
    b. Bjorn Lomborg--who testified before the Clean Air and Nuclear 
Safety Subcommittee last Congress--wrote in the Wall Street Journal 
earlier this month about studies which have showed that in recent 
years, there have been fewer droughts, decreased hurricane damage, and 
a rise in temperatures that is 90 percent less than what many climate 
models had predicted. Mr. Lomborg's July 2014 testimony to the 
Subcommittee also indicated that the cost of climate ``inaction'' by 
the end of the century is equivalent to an annual loss of GDP growth on 
the order of 0.02 percent.
    Given that recent temperature rises have been significantly less 
than what many climate models predicted, does it remain EPA's position 
that climate ``inaction'' will have ``devastating impacts on the United 
States and the planet''? Does the agency agree or disagree with Mr. 
Lomborg's testimony regarding the minimal loss of GDP growth due to 
climate ``inaction''? Please provide all information, data, and studies 
used to support EPA's conclusion.
    c. You are advocating dramatic action at great cost to the American 
people to avert ``devastating impacts'' of global warming. Before such 
costs are imposed on the people, it is essential that you lay out in 
detail the ``devastating impacts on the United States'' that EPA 
anticipates due to climate inaction. Please provide in detail these 
impacts as well as a timeline for when these impacts are expected to 
occur.
    d. If the latest and best available science demonstrates that the 
climate impacts projected by EPA are not occurring, or are less than 
anticipated, would the agency be willing to reconsider its climate 
action policy?
    Response. The EPA is acting pursuant to Section 111(d) of the Clean 
Air Act, which provides for the establishment of standards of 
performance for categories of stationary sources that contribute to 
dangerous air pollution. In the preamble to the proposed rule, we 
discussed the scientific basis for our action at page 79 FR 34841.

    Question 2. EPA's Clean Power Plan is based in part on a ``building 
block'' which assumes states will achieve a 1.5 percent annual increase 
in demand-side energy efficiency.
    a. Please provide the provisions in the United States Constitution 
and Clean Air Act which authorize EPA to base its Clean Power Plan on 
consumers increasing their energy efficiency. How does EPA intend to 
implement this particular ``building block''? b. Please provide the 
peer-reviewed or technical studies which EPA used to establish the 
``building block'' for a 1.5 percent annual increase in demand-side 
efficiency. c. To what extent did EPA account for population growth in 
establishing a ``building block'' whose purpose is to reduce aggregate 
demand on power plants?
    Response. The basis for EPA's fourth Building Block, demand-side 
energy efficiency, is the proposed conclusion that over time states can 
achieve electricity savings of 1.5 percent annually. This Building 
Block is one of four that make up the ``best system of emissions 
reduction adequately demonstrated'' (BSER) that, in turn, serves as the 
basis for the State CO2 goals. The basis for Building Block four is 
discussed at length in the preamble to the proposal (79 FR 34830-34950) 
and the GHG Abatement Measures Technical Support Document (http://
www2.epa.gov/sites/production/files/2014-06/documents/20140602tsd-ghg-
abatement-measures.pdf). EPA does not propose to require the inclusion 
of any particular type of measures, including demand-side energy 
efficiency, as plans are developed for meeting the State goal. Instead, 
states are empowered to chart their own, customized paths to meet their 
goals. The EPA is currently reviewing the more than 4.3 million 
comments received on the proposal, including the comments on the issues 
addressed in the Technical Support Documents and the Legal Memorandum, 
and will respond to the issues raised in those comments when we issue a 
final Clean Power Plan.

    Question 3. EPA claims that the Clean Power Plan's ``timing 
flexibility'' will allow municipally owned utilities and some electric 
cooperatives to ``use both short-term dispatch strategies and longer-
term capacity planning strategies to reduce GHG emissions.'' However, 
these providers often purchase power from dedicated units, sometimes 
crossing State lines, on long-term contracts. Long-term contracts in 
many circumstances yield the most reliable pricing. How does EPA 
reconcile the interim goals contained in the Clean Power Plan with the 
need of municipally owned utilities and some electric cooperatives to 
enter into long-term contracts in order to provide reliable pricing for 
their customers?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. Instead, states have the 
flexibility to choose their own compliance pathways. Following 
publication of the proposed rule, EPA published a Notice of Data 
Availability [79 FR 64543, October 30, 2014] that provided additional 
information on certain issues that had been consistently raised by a 
diverse set of stakeholders, including ideas about the glide path of 
emission reductions from 2020-2029. The EPA is currently reviewing the 
more than 4.3 million comments received on the proposal, including the 
comments on the issues addressed in the Technical Support Documents and 
the Legal Memorandum, and will respond to the issues raised in those 
comments when we issue a final Clean Power Plan.

    Question 4. During a recent taxpayer-funded trip to the Vatican, 
Administrator McCarthy indicated that it is important to look after the 
well-being of persons living in poverty. What has EPA done to evaluate 
the adverse wage and employment impacts that have fallen on middle-
class workers?
    Response. Consistent with statute, Executive Order, and OMB 
guidance, the EPA conducted a Regulatory Impact Analysis that shows the 
benefits and costs of illustrative scenarios states may choose in 
complying with the proposed Clean Power Plan. Because states have 
flexibility in how to meet their goals, the actions taken to meet the 
goals may vary from what is modeled in the illustrative scenarios. 
Specific details, including information about how costs and benefits 
are estimated are available in the RIA (http://www2.epa.gov/sites/
production/files/20 1 4-06/documents/20 140602ria-clean-powerplan.pdf).

    Question 5. In recent years, the U.S. Army Corps of Engineers has 
proposed operational changes that would diminish the amount of 
hydropower available to communities in Alabama. Please explain how 
EPA's proposed carbon dioxide emissions rules account for Army Corps 
decisions which may adversely affect the ability of Alabama communities 
to rely on hydropower as a low-carbon source of energy.
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. The EPA is currently reviewing the more than 4.3 million 
comments received on the proposal, including comments about the 
proposal's consideration of existing zero-emitting energy sources, and 
will respond to the issues raised in those comments when we issue a 
final Clean Power Plan.

    Question 6. President Obama has stated that ``we need to increase 
our supply of nuclear power,'' and that we should be ``building a new 
generation of safe, clean nuclear power plants in this country.'' How 
many new reactors, in addition to those currently under construction, 
are necessary to enable compliance under EPA's base case for the 
proposed rule?
    Response. Nuclear power is part of an all-of-the-above, diverse 
energy mix and provides a reliable, base load source of low-carbon 
power. New nuclear units were not projected and incorporated into the 
setting of the proposed Best System of Emission Reduction (BSER). The 
proposed Clean Power Plan builds on what states are already doing to 
reduce carbon pollution from existing power plants. The Clean Power 
Plan empowers the states to chart their own, customized path to meet 
their goals in a manner that is sensitive to the unique circumstances 
in each state.

    Question 7. In its 2012 decision remanding the Nuclear Regulatory 
Commission's Waste Confidence rule, the DC Circuit Court observed:
``At this time, there is not even a prospective site for a repository, 
        let alone progress toward the actual construction of one. The 
        lack of progress on a permanent repository has caused 
        considerable uncertainty regarding the environmental effects of 
        temporary [spent nuclear fuel] storage and the reasonableness 
        of continuing to license and relicense nuclear reactors.''
    The Administration's actions to shut down the Yucca Mountain 
program caused a Federal court to question the reasonableness of 
licensing nuclear plants, triggering a 2-year licensing moratorium at 
the NRC. The NRC has since revised its rule, which has once again been 
challenged by the NRDC, a proponent of the Clean Power Plan.
    Response. Given that nuclear energy generates nearly two-thirds of 
our nation's carbon-free electricity, how does EPA envision achieving 
carbon reductions if our largest source of carbon-free electricity is 
threatened based on the Administration's decision to illegally abandon 
the Yucca Mountain project?
    Nuclear power is part of an all-of-the-above, diverse energy mix 
and provides a reliable, base load source of low-carbon power. New 
nuclear units were not projected and incorporated into the setting of 
the proposed BSER. The proposed Clean Power Plan builds on what states 
are already doing to reduce carbon pollution from existing power 
plants. The Clean Power Plan empowers the states to chart their own, 
customized path to meet their goals in a manner that is sensitive to 
the unique circumstances in each state.
           Responses by Janet McCabe to Additional Questions 
                         from Senator Sullivan
    Question 1. Has the EPA conducted any analysis specific to Alaska 
that proves the Proposed Rule on existing plants can be reasonably 
implemented and would not impair electricity reliability in Alaska? Do 
you have modelling or cost information specific to Alaska? Do you have 
any analysis specific to Interior Alaska? Please provide all relevant 
data.
    Response. Consistent with statute, Executive Order, and OMB 
guidance, the EPA conducted a Regulatory Impact Analysis that shows the 
benefits and costs of illustrative scenarios states may choose in 
complying with the proposed Clean Power Plan. Because states have 
flexibility in how to meet their goals, the actions taken to meet the 
goals may vary from what is modeled in the illustrative scenarios. 
Specific details, including information about how costs and benefits 
are estimated are available in the RIA (http://www2.epa.gov/sites/
production/files/20 1 4-06/documents/20 140602ria-clean-powerplan.pdf).

    Question 2. How much flexibility is the EPA prepared to provide 
states if efficiency upgrades to power plants, building new generation 
sources, new or upgraded transmission lines or new natural gas 
pipelines are slowed down or stopped because of environmental reviews 
or litigation?
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs, 
including considering the time it will take to put in place the 
necessary infrastructure.

    Question 3. Alaska's grid is quite limited, and most of our 
utilities are not interconnected. Also, Alaska is islanded, as we are 
not connected to the North American power grid. Does the Proposed Rule 
for existing plants contemplate this scenario?
    The Clean Power Plan proposal contemplated that some aspects of the 
four building blocks might apply differently in particular locations, 
including Alaska and Hawaii. One example of this is on 79 FR 34867, 
where we proposed to treat Alaska and Hawaii as separate regions in 
estimating the reductions they could achieve by increasing renewable 
energy generation under Building Block 3.
    4) Alaska has a single transmission line north and south of 
Anchorage with limited transference capacity. One of the presumptions 
of EPAs ``building blocks'' is the notion that more efficient combined-
cycle gas generation can be substituted for coal-fired generation. Will 
there be exceptions made for states where the grid does not allow the 
transfer of sufficient quantities of energy to replace local coal-fired 
generation?
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs, 
including considering the time it will take to put in place the 
necessary infrastructure.
    In the proposed Clean Power Plan, the EPA proposed four Building 
Blocks that make up the ``best system of emission reduction adequately 
demonstrated'' (BSER) that, in turn, serves as the basis for the State 
CO<INF>2</INF> emissions goals. The EPA discussed its justification for 
why those measures, including the increased utilization of existing 
natural gas capacity which we identified as Building Block 2, qualify 
as part of the BSER to reduce emissions at regulated sources at length 
in the preamble for the proposed rule (79 Fed. Reg. 34,830, 34,878--
34,892), the GHG Abatement Measures Technical Support Document (http://
www2.epa.gov/sites/production/files/2014-06/documents/20140602tsd-ghg-
abatement-measures.pdf),and the accompanying Legal Memorandum (Docket 
ID Number EPA-HQ-OAR-2013-0602-0419, pages 33-93). The EPA is currently 
reviewing the more than 4.3 million comments received on the proposal, 
including comments on the availability of transmission to deliver 
energy where there are dispatch changes, and will respond to the issues 
raised in those comments when we issue a final Clean Power Plan.

    Question 5. Currently, natural gas powered electricity generation 
is not available in Interior Alaska, and due to geographical 
challenges, natural gas may not be an economical option for electricity 
generation in the near future. How much flexibility is EPA prepared to 
provide based on geographic challenges such as those faced in Interior 
Alaska?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source or sub-region. The proposed Clean 
Power Plan builds on what states are already doing to reduce carbon 
pollution from existing power plants. It does not require that the 
states actually use each of the building blocks as they develop their 
plans for meeting the State goal. Instead, it empowers the states to 
chart their own, customized path to meet their goals. Under the 
proposal, the states have a flexible compliance path that allows them 
to design plans sensitive to their needs, including considering the 
time it will take to put in place the necessary infrastructure. The 
proposal discussed the availability of new natural gas capacity at 79 
FR 34857.

    Question 6. EPA's Legal Memorandum accompanying the Proposed Rule 
for existing plants states, ``Central to our Best System of Emission 
Reduction (BSER) determination is the fact that the nation's 
electricity needs are being met, and have for many decades been met, 
through a grid formed by a network connecting groups of Electric 
Generating Units (EGUs) with each other and, ultimately, with the end 
users of electricity Through the interconnected grid, fungible 
products--electricity and electricity services--are produced and 
delivered by a diverse group of EGUs operating in a coordinated fashion 
in response to end users' demand for electricity.'' How does this 
rationale apply to Alaska? Please explain.
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
rationale for our proposed determination of BSER. That document can be 
found using Docket ID Number EPA-HQ-OAR-2013-0602-0419. The EPA is 
currently reviewing the more than 4.3 million comments received on the 
proposal, including the comments on the interconnected nature of the 
electric grid and comments on specific locations where there may be 
more localized needs, and will respond to the issues raised in those 
comments when we issue a final Clean Power Plan.

    Question 7. What consultation occurred with states during the 
rulemaking process? Were any State of Alaska officials involved in the 
drafting of the proposed rules?
    Response. The outreach to and response from the public on the Clean 
Power Plan has been unprecedented, including outreach to and feedback 
from stakeholders from all 50 states. EPA has met with and heard from 
both government and utility stakeholders in Alaska. More than 4.3 
million comments have been submitted and EPA is examining and carefully 
considering all the issues raised in those comments.

    Question 8. Do you think the resources that will be spent in Alaska 
complying with the Proposed Rule on existing plants could be better 
spent helping our bush communities move away from expensive diesel 
generation and toward more cleaner and inexpensive options?
    Response. The proposed Clean Power Plan builds on what states are 
already doing to reduce carbon pollution from existing power plants. It 
does not require that the states actually use each of the building 
blocks as they develop their plans for meeting the State goal. Instead, 
it empowers the states to chart their own, customized path to meet 
their goals. Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs.

    Question 9. Fairbanks is reliant on coal fired power. A recent 
University of Alaska study determined that coal fired technology is the 
only viable affordable option for Interior Alaska's electric 
generation. Fairbanks is also in a PM 2.5 nonattainment area. If our 
Interior coal plants shut down, or the rates increase even higher than 
they are already, more Fairbanks residents will begin heating their 
homes with wood stoves and further aggravate the PM 2.5 issue. Have you 
given any thought to how the EPA will help mitigate the social and 
economic impacts on communities if these rules are finalized? Has the 
EPA conducted any analysis on unrelated consequences of this Proposed 
Rule on existing plants, such as the PM2.5 issue?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. The proposed Clean Power Plan 
builds on what states are already doing to reduce carbon pollution from 
existing power plants. It does not require that the states actually use 
each of the building blocks as they develop their plans for meeting the 
State goal. Instead, it empowers the states to chart their own, 
customized path to meet their goals. Under the proposal, the states 
have a flexible compliance path that allows them to design plans 
sensitive to their needs, including considering the time it will take 
to put in place the necessary infrastructure.
    Consistent with statute, Executive Order, and OMB guidance, the EPA 
conducted a Regulatory Impact Analysis that shows the benefits and 
costs of illustrative scenarios states may choose in complying with the 
proposed Clean Power Plan. Because states have flexibility in how to 
meet their goals, the actions taken to meet the goals may vary from 
what is modeled in the illustrative scenarios. Specific details, 
including information about how costs and benefits are estimated are 
available in the RIA (http://www2.epa.gov/sites/production/files/20 1 
4-06/documents/20 140602ria-clean-powerplan.pdf).
           Responses by Janet McCabe to Additional Questions 
                          from Senator Vitter
                 focusing on nrdc relationship with epa
    Under the Clean Air Act Sec. 307(d), EPA is required to post all 
written comments and documentary information received in the docket, 
including information obtained through emails, phone calls, and 
meetings with Agency officials. Documents obtained by the Committee 
pursuant to a request for communications regarding the ESPS and NSPS 
rules between EPA and NRDC reveal a significant amount of 
correspondence that EPA did not post to the rulemaking docket. While 
the requirement does grant the Agency discretion over what information 
is material to the rule, the fact more than a dozen phone calls and 
meetings on the rules were excluded from the docket raises questions 
over EPA's level of transparency in developing the rules.
    Question 1. Ms. McCabe, as you are aware, I submitted requests for 
documents on these rules last Congress. While I understand the Agency 
is still producing documents to the Committee, a review of those in the 
Committee's possession reveal a pattern of frequent meetings and phone 
calls between EPA and NRDC. Not only am I concerned by the increased 
access NRDC had to EPA officials developing these rules, but there is a 
real concern over a number of meetings and calls that EPA did not 
include in the rulemaking docket. Ms. McCabe, are you aware of such 
correspondence not being posted to the docket? Why do you think some 
correspondence with NRDC over others was excluded from the docket? Will 
you commit to correcting the docket?
    Response. Any rule we finalize will comply with all applicable 
statutory public participation requirements, including posting 
documents to the docket.

    Question 2. In one of the emails you released last fall as part of 
your investigation into EPA's relationship with NRDC. One email in 
particular is important given the fact that many states are just going 
to refuse to implement a rule they view as illegal and an inappropriate 
usurpation of power.
    Response. ESPS requires states to submit a State implementation 
plan (SIP) for EPA's approval, which demonstrates how the State will 
meet emission goals. Under 111(d), EPA has the authority to issue a 
Federal implementation plan (FIP) for states that do not submit a SIP 
or submit an unsatisfactory SIP. While the EPA has said ESPS encourages 
State flexibility in developing SIPs, evidence suggests EPA is being 
disingenuous and is inclined to issue a backstop FIP. An email obtained 
by the Committee reveals that the idea of a Federal takeover of states 
through ESPS FIPs may have come from the NRDC. In the email, NRDC 
attorney Dave Hawkins advises senior EPA air official Joe Goffman how 
EPA can tamper with State compliance dates and issue backstop FIPs.

    Question 3. Ms. McCabe, documents obtained by the Committee 
suggests that NRDC helped develop the Agency's strategy for issuing a 
model FIP to circumvent State implementation challenges. [SHOW POSTER] 
Specifically, in June 2013--before the rule was proposed--NRDC attorney 
Dave Hawkins advised senior EPA air official Joe Goffman, ``as long as 
the compliance date for the FIP 111(d) emission limits is a few years 
after the SIP submission deadline, it appears that EPA can promulgate 
backstop FIP limits even in advance of the June 2016 SIP submission 
date.'' Why was NRDC providing such detailed advice to EPA before the 
rule was even proposed? Prior to the email, had EPA considered issuing 
a model FIP? Did NRDC's advice have any bearing on the model FIP EPA is 
currently developing? Is EPA in fact planning to issue its model FIP 
before the SIP deadline?
    Response. The Clean Air Act provides for EPA to write a Federal 
plan if a State does not put an approvable State plan in place. In 
response to requests from states and stakeholders since the proposed 
Clean Power Plan was issued, EPA announced in January 2015 that we will 
be starting the regulatory process to develop a rule that would set 
forth a proposed Federal plan and could provide an example for states 
as they develop their own plans. EPA fully expects that, as 
contemplated by the Clean Air Act, states will want to submit their own 
plans, and will use that as an opportunity to tailor their plans to 
their specific needs and priorities. The agency expects to issue the 
proposed Federal plan for public review and comment in summer 2015.

    Question 4. Ms. McCabe, I think EPA is delusional if the agency 
believes there isn't going to be a serious problem with a number of 
states refusing to implement the ESPS and put forward a State 
implementation plan. Has EPA begun developing a litigation strategy 
with NRDC to force compliance or otherwise enter into settlement 
agreements? And has NRDC, which is perhaps America's largest 
environmental law firm, discussed options for NRDC to help pay for 
energy price increases. In other words, NRDC is worth hundreds of 
millions of dollars, if they're so comfortable increasing energy prices 
on America's poor and elderly have they discussed with you options for 
using some of their endowment to help the consumers they plan on 
hurting
    Response. The EPA is not coordinating with outside organizations in 
the manner you suggest.
                         social cost of carbon
    EPA's regulatory impact analysis for ESPS is primarily based on 
climate benefits derived from the convoluted 2013 social cost of carbon 
(SCC) estimates, as well as of course the PM benefits that EPA's now 
infamous fake CIA agent John Beale worked on. You have made several 
requests, along with other Members of Congress, for information on the 
Interagency Working Group (IWG) that developed the estimates. None of 
the Administration's responses have been fully responsive to such 
requests. There is still zero transparency over who participated and 
the extent of their participation.
    Question 1. Ms. McCabe, you may recall I previously asked whether 
or not you participated in the Interagency Working Group developing the 
social cost of carbon (SCC) estimates, and I know at that time your 
answer was no. I also know that despite congressional requests for 
information, the SCC remains stuck in a black box. There is still zero 
transparency. And since we last spoke on this topic, the EPA proposed 
the ESPS--one of the most expansive and expensive regulations--which 
relies on climate benefits from the flawed and secretive SCC. That 
said, what was your role in developing the cost-benefit analysis for 
ESPS which relied on the SCC? Have you had any interaction with the SCC 
Interagency Working Group? Why have you not provided my office with the 
names and titles of those officials under your supervision in the 
Office of Air Radiation that have participated in the Interagency 
Working Group?
    Response. Consistent with the Office of Management and Budget's 
guidance, the SCC estimates are used in the EPA's analyses of 
regulations subject to benefit-cost analysis under E.O. 12866 and 13563 
to estimate the welfare effects of quantified changes in carbon dioxide 
(CO<INF>2</INF> ) emissions. The SCC estimates were applied in the 
benefit-cost analysis for the proposed Clean Power Plan in the same way 
they are for other EPA regulatory actions subject to E.O. 12866 and 
13563.
    As noted in the EPA's response to previous letters from you on this 
topic, EPA officials from both the Office of Policy (OP) and the Office 
of Air and Radiation (OAR) participated in the interagency SCC 
discussions, including technical staff (economists and climate 
scientists) from the National Center for Environmental Economics in OP 
and the Office of Atmospheric Programs in OAR. The EPA staff provided 
technical expertise in climate science and economics to the broader 
workgroup as needed. For example, the professional economic staff used 
the modeling input parameters developed by the interagency group and 
oversaw the primary modeling and calculations for both the 2010 and the 
2013 SCC estimates. Consistent with the Administration's commitment to 
transparency, the EPA has, upon request, provided to researchers and 
institutions more detailed output than is presented in the 2010 or 2013 
Technical Support Document (TSD), as well as instructions, input files, 
and model source code.
    GAO completed a review of the process the Interagency Working Group 
(IWG) used to develop the SCC estimates and published a report in 2014, 
``Regulatory Impact Analysis: Development of Social Cost of Carbon 
Estimates,'' that discusses the participating entities, and processes 
and methods the IWG used to develop the 2010 and 2013 SCC estimates. 
After interviews with scientists and officials who participated in the 
development of the SCC, along with reviews of relevant technical 
documents, the GAO concluded that the IWG (1) used consensus-based 
decisionmaking, (2) relied on existing academic literature and 
modeling, and (3) took steps to disclose limitations and incorporate 
new information by considering public comments and revising the 
estimates as updated research became available. The GAO also 
highlighted the various opportunities for public input on the SCC in 
general and the interagency estimates, including public comments 
received in response to numerous rulemakings. The GAO concluded that 
the level of documentation for this interagency exercise was equivalent 
to those from other comparable interagency exercises.
    Finally, while I do not attend IWG meetings, I am aware that the 
Office of Management and Budget (OMB) recently responded to public 
comments received through OMB's solicitation for comments on the SCC. 
The OMB comment solicitation was conducted independently from, and in 
addition to, multiple opportunities for comment on individual agency 
rulemakings. As explained in the response document, after careful 
evaluation of the full range of comments, the IWG believes the SCC 
estimates continue to represent the best scientific information on the 
impacts of climate change available for incorporating the impacts from 
carbon pollution into regulatory analyses and continues to recommend 
their use until further updates can be incorporated into the estimates. 
Therefore, EPA will continue to use the current SCC estimates in the 
analysis of the Clean Power Plan.
                          technical questions
    Question 1. In his Presidential Memorandum directing the Agency to 
undergo this rulemaking process, President Obama explicitly directs EPA 
to take ``into account other relevant environmental regulations and 
policies that affect the power sector'' and to ``tailor regulations and 
guidelines to reduce costs''. In the event that a coal-fired power 
plant has invested hundreds of millions of dollars to comply with EPA 
rules such as the Mercury Air Toxics Standard and the Cross State Air 
Pollution Rule, how does EPA's Clean Power Plan ensure that such an 
entity will be able to meet its financial obligations due to these 
investments?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. Instead, states have the 
flexibility to choose their own compliance pathways, including avoiding 
stranded assets. Following publication of the proposed rule, EPA 
published a Notice of Data Availability [79 FR 64543, October 30, 2014] 
that provided additional information on certain issues that had been 
consistently raised by a diverse set of stakeholders, including ideas 
about the glide path of emission reductions from 2020-2029 and other 
topics that have been identified as potentially related to the 
remaining asset value of existing coal-fired generation.

    Question 2. Beyond achieving a certain level of efficiency gains, 
there are no commercially available technologies to reduce CO2 
emissions from coal-fired power plants. According to EPA's regulatory 
impact analysis, the Clean Power Plan will increase electricity rates. 
For certain coal plants operating in organized electricity markets, 
this increased cost is likely to reduce plant production to the extent 
that alternative lower emitting sources of production are less 
expensive and hence will operate at higher utilization rates. Thus, the 
financial impact on the generating unit will be a combination of lower 
revenues associated with lower production and lower earnings associated 
with higher costs not being offset by higher sales revenues. As 
CO<INF>2</INF> emission standard compliance costs increase, reductions 
in production will increase.
    These increased costs will lead to different outcomes for certain 
coal-dominated entities, including rural electric cooperatives, 
municipals, and merchant power producers. Higher electricity costs will 
be either (1) borne directly by ratepayers, in the case of a 
cooperative or municipal; or (2) result in decreased financial 
operating margins, in the case of a generator dependent solely on the 
wholesale market for revenues. Do you agree with these conclusions? If 
not, please explain why. Please further explain how EPA plans to 
address these disproportionate impacts, and how a State in a SIP would 
be allowed to deal with them.
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. Instead, states have the 
flexibility to choose their own compliance pathways, including avoiding 
stranded assets and maintaining electric reliability. Consistent with 
statute, Executive Order, and OMB guidance, the EPA conducted a 
Regulatory Impact Analysis that shows the benefits and costs of 
illustrative scenarios states may choose in complying with the proposed 
Clean Power Plan. Because states have flexibility in how to meet their 
goals, the actions taken to meet the goals may vary from what is 
modeled in the illustrative scenarios. This assessment found that 
nationally, in 2030 when the plan is fully implemented, average 
electricity bills would be expected to be roughly 8 percent lower than 
they would been without the actions in State plans. That would save 
Americans about $8 on an average monthly residential electricity bill, 
savings they wouldn't see without the states' efforts under this rule. 
Specific details, including information about how costs and benefits 
are estimated are available in the RIA (http://www2.epa.gov/sites/
production/files/20 1 4-06/documents/20 140602ria-clean-powerplan.pdf).
                       european disaster question
    Question 1. Fortunately last Congress we had some really great 
witnesses that were able to testify on the State of climate science, 
and the fact that our climate always has been and always will be 
changing, as well as to the impacts policies similar to what EPA is 
trying to implement have had on the citizens and economies of European 
countries that have adopted similar requirements. Can you provide for 
me your thoughts on how Germany, Spain, France and the U.K. have 
benefited from their global warming polices and energy mandates? 
Specifically, can you walk me through how the changes in energy prices 
have impacted the poor and elderly as well as the economies and 
investment in those countries? And of Germany, Spain, France and the 
U.K., which ones do you think stand out as a good model for what EPA 
wants to do with the ESPS and regulating CO<INF>2</INF> ?
    The EPA did not use any European country as a model in designing 
the Clean Power Plan.
                           science questions
    Question 1. Is carbon dioxide critical to the process of 
photosynthesis and life on earth?
    Response. Yes.

    Question 2. As EPA moves forward with regulating carbon dioxide 
will carbon dioxide be the first gas regulated under the Clean Air Act 
that humans exhale at a higher rate than they inhale?
    Response. No.

    Question 3. What percent of CO<INF>2</INF> in the atmosphere is 
emitted by humans?
    Response. Approximately 30 percent of the CO<INF>2</INF> level in 
earth's atmosphere today is a result of emissions caused by human 
activities, primarily the combustion of fossil fuels.

    Question 4. In earth's geologic history is their evidence that 
CO<INF>2</INF> 2 in the atmosphere has been higher than it is today?
    Response. Response. Yes, though not for at least 800,000 years.

    Question 5. In 2009 Al Gore predicted ``The entire north polar ice 
cap will be gone in 5 years.'' Did this prediction come true?
    Response. I am not familiar with the quote you mention. When 
referencing Arctic sea ice trends, the EPA relies on the major 
scientific assessments and standard sources like the National Snow and 
Ice Data Center. Arctic sea ice has continued to decline, at an average 
of 13 percent per decade in September over the satellite era. The 
Arctic sea ice minimum in September <bullet>12 was the lowest extent 
ever observed, at 49 percent below the 1979 to 2000 average.

    Question 6. Stephen Schneider, who authored The Genesis Strategy, a 
1976 book warning that global cooling risks posed a threat to humanity, 
later changed that view 180 degrees when he served as a lead author for 
important parts of three sequential IPCC reports. In an article 
published in Discover, he said: ``On the one hand, as scientists we are 
ethically bound to the scientific method, on the other hand, we are not 
just scientists, but human beings as well. And like most people, we'd 
like to see the world a better place, which in this context translates 
into our working to reduce the risk of potentially disastrous climatic 
change. To do that, we need to get some broad-based support, to capture 
the public's imagination. That, of course, entails getting loads of 
media coverage. So we have to offer up scary scenarios, make 
simplified, dramatic statements, and make little mention of the doubts 
we might have. Each of us has to decide what the right balance is 
between being effective and being honest.'' Does EPA agree with these 
statements?
    Response. The EPA is committed to using sound science and data as 
the foundation for protecting human health and the environment. For 
climate change, we rely primarily on the scientific assessments of the 
U.S. Global Change Research Program (USGCRP), the United Nations 
Intergovernmental Panel on Climate Change (IPCC) and the National 
Research Council (NRC) of the National Academies. These assessments 
synthesize and assess research across the entire body of scientific 
literature, including consideration of uncertainty, in their 
development of key scientific findings.

    Question 7. Timothy Wirth, former U.S. Senator (D-CO) and former 
U.S. Undersecretary of State for global issues, at the first U.N. Earth 
Climate Summit Rio de Janeiro stated: ``We have got to ride the global 
warming issue. Even if the theory of global warming is wrong, we will 
be doing the right thing in terms of economic policy and environmental 
policy.'' Does EPA agree with these statements?
    Response. I am not familiar with the statement you mention. That 
said, as the National Research Council of the National Academy of 
Sciences has stated, ``there is a strong, credible body of evidence, 
based on multiple lines of research, documenting that climate is 
changing, and that these changes are in large part caused by human 
activities.''

    Question 8. Speaking at the 2000 U.N. Conference on Climate Change 
in the Hague, former President Jacques Chirac of France explained why 
the IPCC's climate initiative supported a key Western European Kyoto 
Protocol objective: ``For the first time, humanity is instituting a 
genuine instrument of global governance, one that should find a place 
within the World Environmental Organization which France and the 
European Union would like to see established.'' Does EPA support 
reaching a treaty in Paris so that there can be a ``global governance'' 
of U.S. economic policy?
    Response. No.

    Question 9. On November 14, 2010, Ottmar Edenhofer, a U.N. IPCC 
Official, stated, ``First of all, developed countries have basically 
expropriated the atmosphere of the world community. But one must say 
clearly that we redistribute de facto the world's wealth by climate 
policy. Obviously, the owners of coal and oil will not be enthusiastic 
about this. One has to free oneself from the illusion that 
international climate policy is environmental policy. This has almost 
nothing to do with environmental policy anymore . . .'' Does EPA agree 
with these statements?
    Response. I am not familiar with the statement you mention. The 
EPA's analysis of the Clean Power Plan proposal makes clear that there 
is a significant role for coal and natural gas in our electricity 
generating mix going forward.

    Question 10. Attorney David Sitarz, a key editor of the UN's Agenda 
21 document, stated at the UN's 1992 Conference on Environment and 
Development in Brazil, ``Effective execution of Agenda 21 will require 
a profound reorientation of all human society, unlike anything the 
world has ever experienced--a major shift in the priorities of both 
governments and individuals and an unprecedented redeployment of human 
and financial resources. This shift will demand that a concern for the 
environmental consequences of every human action be integrated into 
individual and collective decisionmaking at every level.'' Does EPA 
agree with these statements?
    Response. I am not familiar with the statement you mention. The 
proposed Clean Power Plan builds on what states are already doing to 
reduce carbon pollution from existing power plants.
                                 other
    Question 1. Section 111 of the Clean Air Act provides EPA the 
authority to regulate new and existing ``stationary sources'' which it 
defines under subsection (a) as ``any building, structure, facility, or 
installation which emits or may emit any air pollutant''. That seems 
pretty straight forward, and yet you propose a rule for existing 
sources that would force states to significantly increase renewable--
which do not emit any air pollutants. What percent of the claimed 
reductions under your proposed rule does EPA anticipate will come from 
increases in renewable energy? Given the plain meaning of the statute, 
how can you set a standard that in essence relies on such an increase 
in renewable power--a non-emitting source of electricity not covered by 
Section 111?
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
issues in the proposal. That document can be found using Docket ID 
Number EPA-HQ-OAR-2013-0602-0419. The EPA is currently reviewing the 
more than 4.3 million comments received on the proposal, including the 
comments on the issues addressed in the legal memorandum, and will 
respond to the issues raised in those comments when we issue a final 
Clean Power Plan.

    Question 2. Section 111(d), the authority for the Clean Power Plan, 
regulates existing sources. However, your proposed rule seeks comment 
on including new sources in a state's 111(d) plan. What new sources do 
you think should be included in a state's plan for existing sources. 
Isn't it true that Section 111 has a separate subsection for the 
regulation of new sources under subsection (b)--not (d). Why do you 
think you have the authority to regulate new sources under section 
111(d)?
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
issues in the proposal. That document can be found using Docket ID 
Number EPA-HQ-OAR-2013-0602-0419. The EPA is currently reviewing the 
more than 4.3 million comments received on the proposal, including the 
comments on the issues addressed in the Legal Memorandum, and will 
respond to the issues raised in those comments when we issue a final 
Clean Power Plan.

    Question 3. Your proposed rule for NEW units would require CCS for 
new coal units despite the fact that CCS has not been adequately 
demonstrated and is not considered to be commercially viable. In fact a 
recent DOE authorized study just concluded in January that ``CCS does 
not yet meet this best system of emission reduction (BSER) standard, 
because it has not yet been adequately demonstrated.'' (pg 103 of 
http://insideepaclimate.com/sites/insideepaclimate.com/files/documents/
jan2015/epa20 15--0144.pdf) What will happen to your existing plant 
rule if your new rule is overturned in Court? Do you believe you have 
the authority under Section 111 to issue an existing plant rule if your 
rule for new units is vacated?
    Response. Along with the proposed rule, the EPA included in the 
docket a Legal Memorandum providing background for the legal issues 
raised by the rule. In addition to the preamble, that Legal Memorandum 
details the EPA's understanding, at the time of proposal, of the legal 
issues in the proposal. That document can be found using Docket ID 
Number EPA-HQ-OAR-2013-0602-0419. The EPA is currently reviewing the 
more than 4.3 million comments received on the proposal, including the 
comments on the issues addressed in the Legal Memorandum, and will 
respond to the issues raised in those comments when we issue a final 
Clean Power Plan.

    Question 4. There are many coal plants out there that have just 
spent millions of dollars to comply with the MATS rule. And yet, under 
your proposed rule, these units will likely be allowed to run only at 
very low capacity levels that make the units uneconomical. Has there 
ever been a major rulemaking by EPA where the standard was not based on 
specific control technologies but rather a limit on how often a unit 
can be run? Do you believe the CAA allows you to establish regulations 
that can force the closure of existing coal plants by establishing de-
facto limits on how often they can run?
    Response. The EPA's proposed State goals do not impose specific 
requirements on any individual source. The proposed Clean Power Plan 
builds on what states are already doing to reduce carbon pollution from 
existing power plants. It does not require that the states actually use 
each of the building blocks as they develop their plans for meeting the 
State goal. Instead, it empowers the states to chart their own, 
customized path to meet their goals.

    Question 5. If you are forced to issue a Federal implementation 
plan, which entities do you have enforcement authority over in the 
context of this rulemaking? Do you believe EPA can enforce renewable 
energy targets or demand side management programs in a State that fails 
to submit an implementation plan? Does your authority extend to the 
states directly or just to the existing stationary sources as defined 
by the Clean Air Act? If your answer is that you are working through 
these issues now--how EPA can propose a rule without knowing the limits 
of its own regulatory authorities?
    Response. Under a State plan approved under Clean Air Act (CAA)  
111(d), all measures that a State adopts into the plan and submits to 
EPA for approval, and that EPA approves, become federally enforceable. 
Under the proposed rule, the states have significant discretion in 
determining what types of measures to adopt and submit to EPA for 
approval. The EPA will approve a State plan if it meets the State goal. 
EPA discussed the concept of Federal enforceability, including the 
availability of citizen suits, in the preamble to the proposed rule (79 
Fed. Reg. 34,830, 34,902-34,903) and the accompanying legal memorandum 
(Docket ID Number EPA-HQ-OAR-2013-0602-0419, PAGE 4) and the agency 
will review any comments we receive on this issue.
    Senator Inhofe. Thank you very much, Ms. McCabe.
    We are going to be using the early bird rule. It is my 
understanding that Senator Markey is under a time constraint. I 
think the Ranking Member is going to let you have her time. It 
is my understanding that also Senator Fischer has some time 
constraints. I would be very happy to yield my time to her for 
questions.
    We are going to have 8 minute rounds. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman, for your 
courtesy. Thank you, Ranking Member.
    Thank you, Ms. McCabe, for being here today. I am glad to 
have the opportunity to talk with you about the impacts of your 
power plant rules on my home State of Nebraska.
    As you know, Nebraska is the only State in the Nation with 
a wholly, publicly owned utility power sector. Public power 
utilities are cost-based entities with no profit motivation or 
obligation to provide stakeholder dividends.
    That is vitally important, I believe, to keep in mind as 
EPA considers these proposed rules. The compliance costs will 
be directly borne by Nebraska residents through their electric 
rates.
    Today, I would like to touch on some of the concerns raised 
in the public comment period by my State's public power 
utilities and by the Nebraska Department of Environmental 
Quality regarding the mandates for carbon emission reductions 
from existing power plants.
    Our State has written that the building blocks contain 
``inaccurate assumptions and unrealistic expectations that will 
result in emission goals that may be unattainable regardless of 
the emission reduction strategies employed.''
    Let us start with building block ONE. The Nebraska DEQ 
states, ``Heat rate improvements of 4 to 6 percent are not 
achievable at Nebraska coal-fired plants. Nebraska utilities 
are required by law to deliver least cost reliable electricity. 
As such, they have already implemented most if not all 
achievable heat rate improvements at existing facilities.
    As you know, as a basis for setting the building block 1 
level, EPA relied on a 2009 study by Sargent and Lundy. It is 
now widely known that EPA misconstrued this study, 
hypothesizing heat rate improvements discussed in the study on 
a cumulative basis when this was not indicated by the study.
    In fact, the Sargent and Lundy has explicitly stated that 
``the ranges presented in the report ``do not support the 
conclusion that any individual, coal-fired, EGU or any 
aggregation of coal-fired EGUs can achieve 6 percent heat rate, 
improvement through implementation of best practices and 
equipment upgrades as estimated by the EPA.''
    Our State DEQs say that building block one is unachievable. 
Sargent and Lundy say that you got it wrong. Is this an area 
that EPA plans to correct before finalizing the rule? How can 
EPA justify emission reduction targets based on building blocks 
if the building blocks themselves are so very flawed?
    Ms. McCabe. Thank you for your question, Senator. This 
gives me the opportunity to start saying something I think I 
will be saying a lot today.
    We have received many, many comments on the proposed rules 
and are looking very closely at all of them. This is just one 
area where we received significant comment. We expected we 
would. That is what the public process is about.
    Let me also mention that in designing the proposal and 
setting up the building blocks, EPA looked across the range of 
activities currently in use by the power sector that have the 
result of reducing carbon emissions. They are numerous and go 
way beyond the four we identified and included in our building 
blocks.
    Our assumption in going into the proposal was not that 
every single source would be able to achieve exactly the amount 
of reductions we identified in each building block. In fact, we 
believe some can do more in one area and some may choose to do 
less in other areas.
    The types of comments we are getting that suggest in some 
States in particular one approach is more suitable than another 
is exactly the type of comment we expected. That being said, of 
course we are looking very closely at any comments that suggest 
our factual conclusions need to be rethought.
    We will be looking at that very closely and making 
adjustments as appropriate, as we always do after reviewing 
comments on a rule.
    Senator Fischer. I appreciate hearing that, because 
sometimes the statements that I hear from EPA, my constituents 
and our public power in Nebraska, the DEQ in Nebraska, what we 
hear from EPA is that things are pretty well set.
    We hear that while there is a public comment period, we 
haven't felt there will be much accommodation to the concerns 
that we have in our State with these specific concerns. You 
give me some hope here. I hope you will follow through with 
that as well.
    According to Sargent and Lundy, even with the best 
maintenance practices in place, performance of many of the heat 
rate improvement methods included in the 2009 report will 
degrade over time.
    EPA did not take into consideration the normal heat 
degradation when it applied the heat rate improvement ranges 
across the coal-fired fleet. Nor did it consider the units are 
the most efficient at full load and their efficiencies decrease 
with decreasing loads and with frequent load changes.
    Don't you think those are significant oversights by the EPA 
and an overestimation of the real heat rate improvements that 
can be achieved and sustained across a coal-fired fleet?
    Ms. McCabe. These are important issues people have raised 
that we are reviewing very closely, Senator.
    Senator Fischer. Do you feel that you can work with States 
in trying to really address that over estimation?
    Ms. McCabe. We spend a lot of time talking with States and 
with the utilities which have raised these kinds of issues with 
us as well. We have one-on-one conversations with States and we 
are meeting with groups of States to talk about a whole range 
of issues.
    In particular, States have been very forthcoming with us 
about particular concerns in their States as have utilities. As 
I say, when there are needed one-on-one conversations, we have 
them and then look at these issues as they apply across the 
whole spectrum of the rule.
    I do want to emphasize that in the final rule, we very much 
want to maintain the flexibility of the States to have choices 
as to how they comply.
    Senator Fischer. Would you commit to me that when you are 
contacted by our public utilities in Nebraska or State 
government in Nebraska that you will respond to their concerns 
and let me know that you have done so?
    Ms. McCabe. I can certainly commit that we will converse 
with anybody who calls us from Nebraska and will certainly keep 
you up to date on those conversations. To the extent that we 
have already had those, we will be certain to give you 
information about that.
    Senator Fischer. I think you will be getting a lot of 
calls.
    Ms. McCabe. We are happy to get them.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Boxer, did you want to yield your 
time?
    Senator Boxer. I do. I yield to Senator Markey.
    Senator Markey. I thank the Senator from California.
    I apologize, the policemen and firemen who captured the 
bombing suspect after the marathon bombing in Massachusetts in 
2013 are about to be honored at the White House and they were 
in my congressional district as well. Through your 
graciousness, I am going to be able to make that ceremony. I 
thank you so much.
    I might also make this point. I think, from my perspective, 
if each member was given at least 1 minute to make an opening 
statement, because of the busy schedules of Senators and then 
have the remainder for questions, at least each Senator would 
be allowed in the opening to make their main point, if only for 
1 minute. I just make that suggestion, Mr. Chairman.
    In the House, if you wanted to, you could waive your 
opening statement and then just add it to the question period 
that you had but only that each member would at the beginning 
of the hearing, if they are there, to be able to make their 
point if only for 1 minute.
    I would just make that suggestion. I think it might be 
helpful given the busy schedule of the members.
    Senator Inhofe. Thank you, Senator.
    Senator Markey. Mr. Chairman, it is fitting that we are 
holding this hearing today. Fifty years ago Sunday, Lyndon 
Johnson became the first President to warn about the increase 
in carbon dioxide in the atmosphere.
    In a special message to Congress on that day in 1965, he 
included the emissions of carbon dioxide, the main cause of 
global warming, in his warning on the impacts of air pollution.
    Fifty years later, global temperatures are increasing. 
Glaciers around the world are melting. Sea level is rising. 
Heat waves are hotter. Rainfall and snowfall are more extreme. 
As daunting as the challenges seem, we have solutions available 
that can reduce pollution, create jobs and inspire new 
technology.
    Just months before his death, President Kennedy proposed 
the Clean Air Act in February 1963. In December of that year, 
it became the second law President Johnson signed as President. 
The original Clean Air Act created a program in the Public 
Health Service to address air pollution, establishing a public 
health foundation that has supported the strengthening of the 
law over the years.
    The Clean Air Act has succeeded. Smog, soot, other 
pollutants have dropped an average of more than 70 percent 
since 1970, even as America's GDP grew by 219 percent.
    Now President Obama is using the Clean Air Act to reduce 
carbon pollution from power plants. The same Kennedy-Johnson 
skyward vision that inspired an era of space exploration can 
spark a new clean energy revolution.
    Since the inception of America's space program, solar 
panels have been a critical power source for missions 
throughout the solar system. That same technology is now 
landing on rooftops and fields across the Country. The solar 
industry now employs more than 170,000 people across our 
Country and is adding workers nearly 20 times faster than the 
general economy.
    This connection that exists between lowering pollution 
while increasing employment is pretty steady throughout the 
years.
    Let me turn to Massachusetts and the Regional Greenhouse 
Gas Initiative States. Those are Massachusetts, Maine, New 
York, Maryland, Connecticut, Delaware, New Hampshire, Rhode 
Island and Vermont. Since 2005, those States have reduced their 
greenhouse gas emissions by 40 percent while continuing to see 
gross domestic product growth in their economies. Do you 
believe that is a model which is going to be used by other 
States under the proposed regulations which the Obama 
administration is considering right now?
    Ms. McCabe. Senator, as you just described, the REGGI 
approach has been quite successful, both in terms of 
environmental improvements and economically and very good 
investments for those States. We certainly think it is one 
model that States might want to look at.
    I cannot speak to whether other States would go down the 
same path but I think the REGGI approach has laid the 
groundwork and shown other States how this can be done in a way 
that is locally successful.
    Senator Markey. I think it is obvious that the model is 
already there. I am sure many States are going to use it.
    Let me move on to the question of reliability. There is 
criticism that the proposed rules of the Administration are 
going to cause a reduction in reliability of the system, but we 
already know that extreme weather, climate change, is, in fact, 
impacting the reliability of our electricity grid in our 
Country.
    Could you deal with the issue of these proposed rules and 
the reliability of the electrical grid system in the United 
States?
    Ms. McCabe. We agree that the worst thing to do for 
reliability is to do nothing. Keeping reliability very much in 
mind as the President directed us and as the Administrator 
always reminds us, we looked at how to design the proposed plan 
in a way to make sure reliability would not be put at risk and 
would, in fact, be enhanced.
    There are a number of things built into the proposal in 
order to make sure that will happen. One is the length of time 
that we put into the proposal for the reductions to be 
achieved. There is a 15-year trajectory before the final 
compliance date.
    That was intended to be quite consistent with the request 
that we have always received from utilities, reliability 
agencies and others that utilities need a long planning 
horizon.
    Senator Markey. Do you think the proposed rules will 
actually drive the electricity system to become more resilient 
and stronger?
    Ms. McCabe. We do think the planning activities that will 
be going on and are going on now are intended to assure a 
reliable electricity system.
    Senator Markey. I think that is very helpful.
    Finally, the American Gas Association comments on the 
proposal were complimentary of the EPA's outreach efforts but 
they ask whether or not there could be more flexibility in 
terms of the planning at the State level in order to comply 
with the carbon reduction goals that will be set for State 
after State.
    Could you deal with that in terms of the flexibility beyond 
the four building blocks that are in the EPA's plan that the 
States might be able to rely upon?
    Ms. McCabe. Yes. I will emphasize again that the building 
blocks were intended to be a starting point. States have 
ultimate flexibility to decide on just what approach they want 
to take. If they want to rely more on natural gas than our 
proposal suggests they might, they would have every opportunity 
to do so.
    Senator Markey. I think it is pretty clear that it is going 
to be possible to reduce carbon, to increase the GDP, to 
enhance the reliability of the system while engaging in 
significant job growth in our Country.
    I thank you so much.
    I thank you, Senator Boxer, for your courtesy.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    I want to use about half of my time and save some to 
accommodate some of my members.
    First, we will hear over and over again what science says 
and all that. We are going to have a hearing and we are going 
to have scientists at a hearing. I think when you don't have 
science on your side, if you keep saying science is settled, 
science is settled, science is settled, there is this 
assumption that is the case.
    That is not the case. When you stop and realize what we are 
doing today, we are talking about doing, through regulation, 
what we have not been able to do through legislation. In other 
words, those of us who are accountable to the people--talking 
about members of the House and the Senate--we have resoundingly 
rejected the very thing we are talking about today on 
CO<INF>2</INF> on five different occasions in the last 13 
years.
    Each time there has been a vote, it has been even more 
strongly rejected. What they are trying to do right now is do 
through regulation what they have not been able to do through 
legislation. I want to mention a couple things here today.
    The recent analysis finds that China emits 800 million tons 
of CO<INF>2</INF> in 1 month. According to EPA's proposal, the 
maximum amount of CO<INF>2</INF> reduction under the Clean 
Power Plan is around 550 million tons in 1 year.
    A question I would have for you, Ms. McCabe, is how will 
the Clean Power Plan impact global CO<INF>2</INF> emissions 
when China is producing more CO<INF>2</INF> in 1 month than the 
Clean Power Plan could potentially reduce in 1 year, even if it 
is implemented?
    Ms. McCabe. The Clean Power Plan will certainly result in 
less CO<INF>2</INF> emissions as well as our clean car rules 
and other measures we are looking at. There will be less 
domestic CO<INF>2</INF> from the U.S. as a result of the Clean 
Power Plan.
    This is why it is important for the United States not only 
to be working domestically but to be working internationally. 
We recognize this is a global problem and that other countries 
are emitting CO<INF>2</INF>. That is why we have been very 
aggressive and involved with China.
    Senator Inhofe. You don't disagree with this chart, do you? 
This chart is an IPCC chart, a United Nations chart, right?
    Ms. McCabe. I don't know, Senator.
    Senator Inhofe. What we have in the global greenhouse gases 
is a total figure. The green over here is what you are 
proposing. This is the reductions we have had. I want everyone 
to use a little common sense and look at this.
    If your projections are correct, they are going to continue 
to have these emissions and we would only be able to reduce the 
emissions in 1 year. I appreciate your honesty in saying there 
is the problem.
    Are you operating on some kind of a delusion that somehow 
China is going to change their behavior? Is that what it is 
predicated on?
    Ms. McCabe. We have been working with China. Recently an 
announcement of certain actions China has committed to take was 
made.
    Senator Inhofe. Let me tell you what those were. I am going 
from memory so you can correct me if I am wrong.
    They had the meeting. China said, if you want to do this, 
if you want to have these reductions, you can go ahead and have 
them but we are going to increase our emissions of 
CO<INF>2</INF> until 2030. They amended that downward to 2020.
    One, if you believe China is going to do something, that 
would not happen. They are still going to increase as they are 
doing right now until 2020.
    I have talked to the people from China. They sit back and 
smile. The thing they would love to have us do in this Country 
is make our reductions so we will be chasing our manufacturing 
base over there.
    I would like to confine it to this. If you don't disagree 
with this, where is the logic here? What do you think is going 
to happen to change that green two tons a year?
    Ms. McCabe. For the first time, China has agreed to curb 
its growth in CO<INF>2</INF>.
    Senator Inhofe. Is there a document they have signed saying 
they are committed to doing that?
    Ms. McCabe. I don't know if there is a document, Senator, 
but they have made that announcement, they have made that 
commitment in conjunction with the United States.
    Senator Inhofe. The commitment is that they will start 
reducing it by 2020?
    Ms. McCabe. That they will peak emissions and that they 
will invest significantly in 20 percent of non-fossil fuel 
generation in the coming years which is a very significant 
commitment as well.
    Senator Inhofe. I will retain my 3 minutes.
    Senator Boxer.
    Senator Boxer. I am going to yield to Senator Merkley.
    Senator Merkley. Thank you very much.
    Thank you, Ms. McCabe. It is a pleasure to have you here to 
address such an important issue.
    Part of the conversation we are having, as initiated by the 
Chair, was how the U.S. changes operate in the context of a 
global challenge. This really is a global tragedy of the 
commons. We all share in the atmosphere on this planet.
    The gases we put in the atmosphere travel everywhere. It is 
only in the sense that there is an international strategy that 
we have some sense or opportunity to take on this issue.
    What happens if each nation, among the nations of the 
world--India, China and the U.S. are the major carbon dioxide 
polluters--if each of those nations says, let's not act until 
the other two nations act and then we will come along later. 
What happens to the planet in that situation?
    Ms. McCabe. This is the dilemma, the tragedy of the 
commons, Senator. We all have to act. If everybody says we are 
not going to act because we don't think anybody else will act, 
then CO<INF>2</INF> emissions will continue to increase, 
temperatures will continue to rise, and the oceans will get 
more acidic.
    We will have more droughts, we will have more heat waves, 
and we will have more suffering around the globe and in this 
Country as a result of the impacts on the climate.
    Senator Merkley. Is there some possibility that by the U.S. 
taking this issue seriously and engaging in dialog with all the 
nations of the world but also with India and China, that we can 
accelerate action among all three nations?
    Ms. McCabe. We absolutely believe so. We believe it is 
essential for the United States to be asserting and showing 
leadership.
    Senator Merkley. When we look at this, we look at the total 
carbon dioxide production but much of the world looks at it in 
the context of individual footprint, if you will, per capita 
carbon dioxide.
    In that sense, is it the Chinese, the Indians or the 
Americans who have the largest per capita footprint?
    Ms. McCabe. I believe it is the United States that has the 
largest footprint in carbon dioxide.
    Senator Merkley. Do you have a sense of the proportion with 
the other nations?
    Ms. McCabe. I don't off the top of my head but I would be 
glad to get that information for you.
    Senator Merkley. If I was to tell you that the footprint 
here in America is more than three times larger than that of 
China, would that sound in the ballpark?
    Ms. McCabe. I think that could well be in the ballpark.
    Senator Merkley. If I was to tell you the most recent 
statistics who that our footprint is 12 times per capita that 
of India, does that sound about right? It is right. Thank you 
for confirming that.
    Certainly we have benefited, if you will, from utilizing 
fossil fuels on a scale much larger than individual citizens in 
China or India. In some sense, that gives us an obligation to 
help be leaders in the world in taking this on.
    China has obligated itself to proceed to produce, by 2030, 
renewable energy, non-fossil fuel energy, that is equal to the 
amount of electric energy produced in the United States from 
all sources as of this moment. Were you aware of that 
commitment?
    Ms. McCabe. Yes.
    Senator Merkley. That is pretty phenomenal. In other words, 
all of our fossil fuel energy from coal, from natural gas, from 
solar, from wind, all combined together, China is going to 
match that amount with renewable energy in the next 15 years. 
That is a pretty extraordinary commitment that we didn't have 
in the previous year.
    Ms. McCabe. That is correct.
    Senator Merkley. That commitment came out of a dialog with 
China about the need for all the nations of the world to 
proceed to take on this issue?
    Ms. McCabe. That is correct.
    Senator Merkley. We are all going to suffer if the planet 
continues on its warming pace?
    Ms. McCabe. Yes.
    Senator Merkley. Currently, we are on a path where our 
carbon pollution has gone up to 400 ppm, up from about 270 ppm 
for the industrial revolution, and the pace has doubled in the 
last few decades. That is, we were going up about 1 ppm on this 
planet.
    We are at 2 ppm now, which means that within the time many 
members on this panel will serve in the U.S. Senate, we are 
going to see carbon levels that go up from 400 ppm where we are 
now quite possibly through 450 ppm and higher.
    With that comes a global challenge in which we will surpass 
the point where we have a 50 percent possibility of keeping 
temperature rise from under 2 degrees. Is that something we 
should be concerned about?
    Ms. McCabe. We absolutely should be concerned.
    Senator Merkley. Does that help drive the current policy of 
saying this is why we need to look at the most efficient ways. 
You have laid out a plan which says basically each State should 
find the most efficient ways to tackle carbon pollution. That 
makes a lot of sense economically.
    I am seeing that carbon pollution is having a huge impact 
in Oregon. Our oyster production is faced by a challenge where 
oysters are having trouble forming their shells because the 
ocean is 30 percent more acidic.
    If the ocean is 30 percent more acidic now than before the 
industrial revolution and oysters are having trouble forming 
their shells, what else is going wrong in the ocean and the 
food chain? It could be a lot more, I imagine.
    Ms. McCabe. Right.
    Senator Merkley. We are having fire season that is several 
weeks longer now than it was 30 years ago, which is having a 
devastating impact, not to mention the pine beetle expansion. 
That is a big economic issue for our State.
    We are having substantial droughts, three of the worst ever 
droughts in the Klamath Basin in just the last decade and a 
half, three of the worst ever droughts, having a huge impact on 
our agricultural base. That is an economic issue.
    Ms. McCabe. Yes.
    Senator Merkley. It isn't just a matter of some theory 
about some computer model in the future, this is something 
having a huge impact on our economy, on our rural way of life, 
on our fishing, our farming and our forests right now.
    Ms. McCabe. Yes.
    Senator Merkley. Thank you for bringing forward a plan that 
encourages each State to find the most cost effective, flexible 
way of taking on carbon dioxide. That makes a tremendous amount 
of sense. If each State is going to follow a different path, 
maybe we will learn from each other. Your plan allows 
partnerships to occur between States as another form of 
flexibility?
    Ms. McCabe. Yes.
    Senator Merkley. That also makes a lot of sense.
    You have laid out these four building blocks. This is 
basically one set of ways we can get to these numbers, but go 
find the best way possible for your State?
    Ms. McCabe. That is correct.
    Senator Merkley. I thank you for putting forward a plan 
that helps put the United States in the leadership role of 
working with the nations of the world to take on this 
devastating challenge, a challenge that is having a huge 
economic impact in my State right now and a huge impact on 
rural America right now.
    It is the responsibility of our generation to take it on 
and of each President who serves in the Oval Office to take it 
on. Thank you for doing so.
    Ms. McCabe. Thank you, Senator.
    The Chair. Thank you, Senator Merkley.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Thank you, Ms. McCabe, for being with us today.
    I do believe the regulation we are discussing today is 
EPA's most blatant overreach thus far, and there have been a 
number of them.
    First, let me observe from the poster that the Ranking 
Member displayed earlier listing three headlines from national 
newspapers saying it is official, I was reminded of a scene 
from the movie ``The King's Speech'' in which the speech 
therapist, Lionel Logue, is talking to King George. One of the 
things Lionel says is ``You need to quit smoking.'' King George 
says, ``My doctors tell me smoke relaxes the throat.'' Lionel 
says, ``They are all a bunch of idiots.'' The King replies, 
``They have all been knighted.'' Lionel replies, ``Then it is 
official.''
    To say that we have some headlines from the Washington Post 
and other newspapers and that makes it official, I would just 
observe these were the smartest people in Britain at the time. 
They were giving the King of England exactly the wrong advice 
about what he should be doing with regard to smoking.
    It is possibly conceivable that the smartest people of our 
time might be wrong and that some of the very learned and 
educated contrarians on the issue of climate change will turn 
out to be vindicated in the end.
    I think you will agree, Ms. McCabe, that when my colleagues 
on the other side of the aisle talk about carbon pollution, it 
is a new term that has been coined over the last several years. 
They are not talking about smog or carbon particles in the air, 
they are talking about CO<INF>2</INF>, carbon dioxide.
    It sounds so sinister, pollution, dirty and slimy, carbon 
pollution, but actually they are talking about carbon dioxide. 
Carbon dioxide doesn't cause lung disease in children or 
asthma. Carbon dioxide hasn't been shown to cause children to 
miss school.
    I just want the public and the people listening to this, 
both in the hearing room and perhaps on television, to 
understand when we use the term dirty carbon pollution, we are 
talking about nothing other than carbon dioxide.
    Let me ask you about minimum incremental capital costs and 
the remaining useful life of coal-fired facilities. The Clean 
Air Act says the agency is supposed to consider the remaining 
useful life of existing sources they are proposing to regulate.
    The Mississippi Development Authority says the minimum 
incremental capital cost to Mississippi of this rule, if it is 
implemented as it is written now, will be $14.2 billion. The 
cost will be mainly constructing generating facilities that we 
don't need right now under the current law and the current 
regulations.
    Your own impact analysis says over 50,000 megawatts of 
coal-fired plants across the Country will have to be retired 
because of the rule. Many of these plants in Mississippi, they 
have spent billions of dollars to come into compliance with EPA 
rules and are now in compliance. Yet, because of the new rules, 
they will have to retire anyway, irrespective of the fact that 
they have years of remaining useful life.
    Tell me how your proposal considers the remaining useful 
lives of these coal plants if the rule will force them to 
retire prematurely?
    Ms. McCabe. Of course the rule does not require any 
particular plant to take any particular action. We looked 
across the industry, across the Country at the age of plants, 
and the average age of coal-fired plants is I believe over 40 
years, so there are a lot of plants that have certainly lived 
out or are close to living out their remaining useful life.
    We understand business decisions are being made by 
utilities about how to proceed with those plants. The remaining 
useful life is absolutely something we are to take into 
account. We did so in the proposal and will do so in the final, 
further informed by all the input we have received.
    We were very mindful of not putting States in the position 
of stranding assets, in particular, the types of plants you 
just mentioned, ones that have recently invested in pollution 
control equipment and expect to produce electricity in a 
controlled way into the future.
    One of the reasons that we have a long trajectory in the 
plan is to take into account those sorts of considerations, 
another reason the plan is so flexible.
    Senator Wicker. How long is that trajectory?
    Ms. McCabe. The final compliance date is 2030.
    The States, in planning over that period of time, are able 
to make their own choices about what to do. If they have a 
plant that has many years of remaining useful life, has been 
recently upgraded, they certainly have the ability to continue 
operating that plant.
    In fact, our projections are that in 2030, still 30 percent 
of the power in this Country would be produced by coal plants. 
We expect and assume that coal plants will continue to operate, 
even through and after these plans are fully in place.
    Senator Wicker. But if the only way my State of Mississippi 
can achieve the CO<INF>2</INF> emission targets is to close 
these coal plants, are you saying we will be able to work with 
your agency to avoid this and keep those coal plants in use 
during their remaining useful life?
    Ms. McCabe. I don't know whether that is the situation in 
your State, but we certainly would be happy to have that 
conversation with the environmental and utility regulators in 
your State.
    Indeed, we may have already done so. My staff has been 
spending a lot of time on the phone with States to understand 
why that is their conclusion, seeing what our reaction to that 
is, and see whether the flexibilities we have built into the 
proposal can provide a path for them.
    Senator Wicker. It is my understanding that among the 
numerous items of input that you have received during the time 
of this is some 3 million comments from around the Country. 
Among those are comments from people in Mississippi who would 
have to comply with this.
    What they are saying is flexibility sounds great, but if 
the only way we can achieve this goal is to shut down our power 
plants, we have no flexibility at all. I have to go back to 
what the people on the ground in Mississippi are telling me. 
That is, we are going to have to, in short order, close down 
the entire current coal-fired production in Mississippi.
    I hope what you are saying is true, but it seems to me this 
is absolutely going to be a regulatory nightmare for electric 
providers, for users and for working families in the State of 
Mississippi. I hope we can avoid this with something more 
reasonable.
    Ms. McCabe. One of the issues that we have heard from many 
people right in this area is the interim goal the proposed rule 
set in 2020, a lot of the anxiety is about meeting an interim 
goal in that time period. That is something we are looking 
very, very closely at.
    The Chair. Thank you, Senator Wicker.
    Senator Boxer.
    Senator Boxer. I will yield to Senator Cardin.
    The Chair. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Wicker and I usually agree on many issues. This is 
not one of them. We do agree on King's Speech being a great 
movie, but I am afraid King George got too much advice from the 
tobacco industry on their findings on the use of tobacco rather 
than from science at the time.
    It seems to me also that if you look at the scientific 
information we have today and exclude some of the information 
from the fossil fuel industry, it is clear that carbon is a 
problem.
    Senator Wicker. It is official.
    Senator Cardin. It is official. Thank you. We are in 
agreement then.
    Carbon combined in our environment, causing climate change, 
is real. It is causing serious risks not only to the people in 
our Country but globally. We have a responsibility to act.
    I would also like to point out that the Clean Air Act has 
been widely hailed as being very successful. Many of us 
remember all the red alert days have now been declining 
dramatically. In New York, Los Angeles and Baltimore, we have 
seen incredible improvements.
    Our older people, our younger people and people who suffer 
from respiratory problems are much safer today. The cost 
benefit ratios are very clear. We are building on that. I thank 
you very much, Ms. McCabe.
    Power plants are the largest, single source of carbon, 40 
percent of all carbon. EPA not only has the legal authority, 
you have the responsibility to act, to deal with that single 
largest source of carbon emissions.
    In the regulation you issued in June, which is now subject 
to comment, a 30 percent reduction by 2030 of the 2005 limits, 
was based upon your best judgment on science where we can 
achieve that, correct?
    Ms. McCabe. That is correct, Senator.
    Senator Cardin. It didn't just come out of thin air. It was 
a scientifically based analysis that we could achieve in 
regards to carbon reductions?
    Ms. McCabe. Correct.
    Senator Cardin. The cost benefit we talked about before, 
but by achieving those levels, first of all, it is not just by 
more efficient energy sources, it is also by conserving energy?
    Ms. McCabe. That is correct.
    Senator Cardin. I have heard about the cost to consumers 
but as we become more efficient, consumer save, don't they?
    Ms. McCabe. Yes, they do, Senator. If you use less 
electricity, overall your bills can go down. That is what we 
predicted.
    Senator Cardin. I just want to make that point. The cost 
benefit analysis that we go through when looking at EPA rules 
under the Clean Air Act or under the Clean Water Act, there are 
direct savings as Senator Boxer discussed, the number of 
premature deaths that will be saved, the number of work days 
that parents have to stay home because their child can't 
breathe, or the days lost at summer camp because children can't 
go to camp. Those are direct savings that we have as a result 
of implementing these laws.
    We also get more efficient use of energy which will also 
save us money?
    Ms. McCabe. Correct.
    Senator Cardin. We haven't even discussed it to the extent 
that we do reverse some of the trends we have today on climate 
change and have less of these extreme weather conditions. We 
can tell you the billions of dollars these extreme weather 
conditions are costing the United States.
    If you look globally at those who are becoming climate 
refugees who are being displaced, the cost is incredible.
    All that builds into the fact that in Maryland, we have 
taken steps to deal with our power emissions through our power 
plants. We have done that and have had a growing economy. It 
has helped our economy.
    The enactment of the Clean Air Act in the 1970's, we have 
seen tremendous economic growth in our Country. We believe that 
a healthy environment and a robust economy go side by side. As 
I understand it, that is the philosophy of the rule you brought 
forward and the comments you are receiving because you have a 
dual objective--a clean environment and a robust economy.
    I want to talk about local flexibility. Maryland is one of 
nine States that is part of the regional initiative in the 
northeast and the mid-Atlantic, the REGGI proposal. We have 
taken some pretty extreme measures in order to reduce carbon 
emissions. We are downwind, so we have to worry about what is 
going on around the Country.
    We want other regions to do their share because it is not 
only important for our global responsibility, it is important 
to the people of Maryland that we have clean air. We can only 
do so much in our own State.
    Talk a little bit about the flexibility that we have in our 
State as part of a regional effort. How have you taken into 
consideration the numbers based upon States that have joined 
regional compacts?
    Ms. McCabe. As we mentioned before, REGGI is a great 
example of States coming together to find very efficient ways, 
in a regional area, to make reductions in a way that is very 
helpful to the environmental goal and the economy.
    In our rule, we give the States flexibility to do a plan on 
their own or to join regionally. Our cost analyses show that 
regional plans tend to be more cost effective because there are 
more choices.
    I think that is what you are getting at, Senator, more 
choices for States to use different strategies, more choices 
for utilities, many of whom operate across State lines to have 
flexibility to make the most cost effective changes available 
to them and have a broader pool from which to choose.
    REGGI has demonstrated that is an effective way to achieve 
the lower greenhouse gas emission goal.
    Senator Cardin. Mr. Chairman, let me comment on China 
because there has been a lot of conversation concerning China.
    Another responsibility I have in the Senate is as the 
Ranking Democrat on the East Asia and Pacific Subcommittee. I 
have been to China. China is leading the world right now on 
renewable energy. They have invested over $50 billion.
    This is not a country that has the same values we have as 
far as our global responsibilities looking at ourselves in a 
democratic state; they have done it because the people are 
demanding it. When you go to China, you see pollution. I was in 
Beijing for about 4 days, never saw the sun and there were no 
clouds in the sky.
    They also do it because they don't have a lot of fossil 
fuel sources, so they really need to become less dependent. 
They recognize that it is in their economic interest to invest 
in cleaner energy sources.
    I applaud the efforts of the Administration to bring China 
into specific achievable goals as we all work toward our 
universal responsibilities to deal with climate change. Whereas 
Maryland cannot deal with the healthy air without the help of 
our surrounding States, we cannot deal with climate change 
unless we have global cooperation. That requires U.S. 
leadership and I applaud the Obama administration for its 
leadership.
    The Chair. Thank you, Senator.
    For clarification, put the chart back up, if you would. 
When Senator Merkley was talking about the greenhouse gas, he 
was talking about greenhouse gases per capita which obviously 
India and China are not as industrialized as it is here, and 
they have millions and millions more people.
    I just wanted to make sure that everyone understands that 
did not refute accuracy of this chart.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Ms. McCabe, thank you for your testimony today.
    I want to make a few statements. There has been a lot of 
talk about the Clean Air Act and the Clean Water Act. I think 
all of us think they have been very successful. I think we all 
love clean air and clean water.
    People are bragging about their States. I can talk a little 
bit about my State. We have the cleanest air and the cleanest 
water probably in the world. We have the most pristine 
environment probably in the world. We have the highest 
standards on protecting the environment at the State probably 
in the world.
    We have one of the best records in the world of responsibly 
developing our resources and protecting our pristine 
environment. These are all very important. We all recognize 
that.
    I also think jobs are important and affordable energy is 
very important. In my State, ironically, the citizens of Alaska 
pay some of the highest energy costs in the Country. I also 
very importantly think the rule of law in the Constitution is 
important, which I assume you do as well.
    There has been a lot of talk about the agreement with 
China. I certainly don't think that relatively flimsy 
agreements between the President and China authorize the EPA to 
do anything that Congress has not authorized.
    Do you think agreements with the Chinese give the EPA 
authority to take any action that Congress hasn't? I am curious 
because there has been a lot of discussion about these Chinese 
agreements. We haven't really seen them and it seems you are 
almost taking action based on an agreement we have with China.
    The last time I looked at the Constitution, that wasn't 
where the EPA derives its authority.
    Ms. McCabe. Absolutely not, Senator. That is not why we are 
taking action. We are taking action under the Clean Air Act.
    Senator Sullivan. Let me get to another concern of mine. I 
just wanted to get that China agreement issue off the record, 
on the record in terms of where you are deriving your 
authority.
    One of the things I have had a concern about, I think a lot 
of Americans have had a concern about, is what I call the Obama 
administration two-step. It goes something like this.
    The President and his Administration want to get something 
done. That is laudable. The elected President can certainly lay 
out a vision. A lot of these require actions by Congress under 
the Constitution.
    The President will do a head nod to the Constitution, to 
the statutes with regard to what he wants to get done. If that 
doesn't work out, he ends up taking executive action anyway. 
There are numerous examples.
    Immigration is one. The President wanted Congress to move 
on immigration. Congress didn't. That is the way the system 
works. Twenty-two times he says he can't take certain action, 
then he reverses himself and says, I can take that action.
    Anwar is very important to my State. There is no doubt that 
the 1002 coastal area, you are probably familiar with it, in 
Alaska, in order to designate it wilderness, no doubt that has 
to be done by Congress.
    The President supposedly is going to put forward a bill to 
do that. It will go nowhere in this Congress. Yet, he has 
already said, I am going to move forward and designate through 
Executive Order, I will manage Anwar for wilderness anyway.
    The waters of the United States, EPA wanted to expand its 
authority over the waters of the United States and put forward 
legislation in 2009 that didn't go anywhere because Congress 
and the American people didn't want to expand that authority. 
Through a regulatory action, you expanded the authority.
    Now you are doing this. I think the Chairman has already 
laid out that what you were trying to do was move through 
Congress. It didn't pass. That is the way our constitutional 
system works, but it doesn't work for agencies to then say, it 
didn't pass through Congress, so I will do it anyway through a 
regulation. That is not how the system works.
    Your agency, in my view, has been one of the biggest 
abusers of this two step approach. It is not just my view. Are 
you familiar with the recent Utility Air Regulatory Group v. 
EPA decision by the U.S. Supreme Court?
    Ms. McCabe. Yes, I am.
    Senator Sullivan. Did you read that decision?
    Ms. McCabe. Yes, I did.
    Senator Sullivan. It was a decision in which the Supreme 
Court was also chastising the EPA for taking actions and 
authority that it clearly said it didn't have. Let me read a 
provision of that recent Supreme Court decision.
    It says, ``EPA's interpretation is also unreasonable 
because it would bring about an enormous transformative 
expansion of EPA's regulatory authority without clean 
congressional authorization.''
    Do you think this rule brings about an expansion of your 
regulatory authority?
    Ms. McCabe. The rule we are talking about here today?
    Senator Sullivan. Correct.
    Ms. McCabe. If I could respond?
    Senator Sullivan. No, just respond to that question.
    Ms. McCabe. I believe the rule we have proposed and that we 
are going through comment on today is squarely based on our 
authority in the Clean Air Act.
    Senator Sullivan. What provision of the Clean Air Act?
    Ms. McCabe. Sections 111(b) and 111(d).
    Senator Sullivan. Have you read the CRS analysis of your 
authority?
    Ms. McCabe. I am not sure exactly what you are referring 
to.
    Senator Sullivan. The congressional Research Service did an 
analysis of your authority on this regulation and the questions 
CRS had with regard to your authority to issue this reg. Have 
you read that?
    Ms. McCabe. I don't believe that analysis suggests that we 
don't have the authority to do what we are doing.
    Senator Sullivan. It did. It looked at a number of areas 
where it raised questions. I would ask, if you haven't done 
that, if the EPA General Counsel's Office can respond to the 
CRS analysis of this regulation and your authority under the 
Clean Air Act to issue that. Can you do that?
    Ms. McCabe. We would be happy to do that.
    Senator Sullivan. Let me get back to what the Supreme Court 
mentioned. It mentioned when the EPA undertakes a reg that is 
an enormous and transformative expansion in its regulatory 
authority, they are very skeptical of your power.
    Do you think this regulation dramatically expands your 
authority?
    Ms. McCabe. I do not.
    Senator Sullivan. You don't?
    Ms. McCabe. I don't. I don't. I believe that we are 
following what the Clean Air Act requires. This is a statute 
Congress enacted to protect the public health from air 
pollution. The agency over a number of years on a very sound 
scientific record has made a determination that CO<INF>2</INF> 
endangers public health and welfare.
    That determination was upheld by the U.S. Supreme Court. 
The EPA then has taken actions based on that finding of 
endangerment.
    Senator Sullivan. I think you are doing exactly what the 
EPA reprimanded you from doing in its recent Supreme Court case 
where you are taking significant power under the Clean Air Act 
that is dramatically expanding your powers over the U.S. 
economy without clear congressional authorization.
    As a matter of fact, you tried to get this authorization 
before and Congress has not passed it. You are not allowed to 
then move forward with the regulation to do what Congress won't 
allow.
    Let me ask another question. You talked a lot about the 
States' flexibility. It sounds great. It sounds wonderful. 
Thirty-two States have raised legal objections to this rule; 12 
have already sued you, even though you haven't finalized it.
    There was testimony by FERC Commissioner Tony Clark who 
stated, ``The proposed rule on existing plants has the 
potential to comprehensively reorder the jurisdictional 
relationship between the Federal Government and the State's, 
dramatically altering the traditional lines of authority.''
    He later said, ``In spite of EPA's promise of flexibility, 
States are ceding ultimate authority to the EPA.'' Do you think 
that shows flexibility toward the States?
    Ms. McCabe. I don't agree with the way Commissioner Clark 
has characterized it. The States are clearly in charge of 
developing plans to reduce carbon emissions under the Clean Air 
Act and under our proposed rule.
    Senator Sullivan. Mr. Chairman, my time has expired. I have 
several additional questions that I will submit for the record, 
particularly as it relates to interior Alaska communities such 
as Fairbanks which pay enormously high energy costs and will be 
severely, negatively impacted by this rule if it goes through.
    I would like the EPA to specifically answer questions as 
relates to communities in Alaska.
    Ms. McCabe. I would be happy to answer your questions.
    The Chair. Thank you, Senator Sullivan.
    Let me give you an additional minute of my time because you 
have taken that and it is because you are discussing something 
I was going to bring up. The mere fact that 31 States oppose 
this power plan and more than half believe it is not legal 
under the Clean Air Act.
    I would be asking in my remaining time how are you are 
going to coerce these people into doing something they don't 
want to do? You cannot take their highway funds away. Think 
about that.
    Senator Boxer.
    Senator Boxer. I yield to Senator Whitehouse.
    The Chair. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman.
    We always have an interesting discussion in which one side 
if the committee only looks at one side of the ledge and that 
is the coal economy and the fossil fuel industry economy. Many 
of us have different economies that are paying the price of 
carbon pollution.
    My colleagues have heard plenty from me about this over the 
months and years. Let me bring in a couple of other voices.
    In late 2014, fishery regulators announced that for the 
second consecutive year, there would be no shrimp fishery in 
the Gulf of Maine this winter. The principal culprit is warming 
ocean water caused by global climate change.
    The author goes on to say, ``The lobster has been 
disappearing from its traditional habitat in southern New 
England'' and described a phenomenon that scientists dubbed an 
ocean heat wave in the spring of 2012 that led to an early molt 
and migration of lobsters that caused a supply glut and 
subsequent price collapse.
    The author goes on to say, ``The message here is clear. 
Climate change is taking dollars and jobs away from New 
England's fishing communities. Generally fish species off the 
northeast United States are collectively moving to higher 
latitudes and deeper water in search of the cooler temperatures 
they require to survive.'' We certainly see that in Rhode 
Island.
    She adds, ``The potential for dramatic storm surge events 
in which higher sea levels combine with more intense weather 
activity increase flooding and storm damage.'' We certainly 
have seen that in Rhode Island with Sandy.
    The author comes to the conclusion what is needed is 
``honest, fact-based discussion and a genuine bipartisan 
commitment to solutions.'' The author of that article is none 
other than our former Republican colleague in the Senate, 
Olympia Snowe.
    Another voice that has come out recently comes from the 
Economist Magazine. The Economist Magazine is a very 
conservative publication but it inhabits the space where it is 
conservative but not under the control of the fossil fuel 
industry.
    Here is an article they recently posted. ``If the coal, 
electric power and automotive industries had their way in the 
early 1970's, American cities would look like Chinese cities 
today. The 1970 Clean Air Act triggered the same kind of 
hysterical industry denunciations we are seeing today in 
response to the move to force the electric power industry to 
reduce greenhouse gas emissions.
    ``Among them was Ford claiming that the 1970 Act `could 
cutoff automobile production in just 5 years, lead to huge 
price increases for cars, even if the production were not 
stopped and do irreparable damage to the American economy.' ''
    Again, in 1972, when the industry was being asked to adopt 
catalytic converters, General Motors threatened ``complete 
stoppage of the production line and the president of Ford said 
it could cause Ford to shut down.''
    In 1974 when we were acting on sulfur emissions, American 
Electric Power spent $3.1 million on an ad campaign to convince 
that installing scrubbers on coal-fired power plants would be a 
disaster.
    The article continues, ``Needless to say, this was all 
nonsense. America's GDP has grown 212 percent since then while 
emissions of traditional air pollutants fell by 68 percent. 
Adult mortality in the United States would have increased by 
160,000 in 2011,'' that is dead people, adult mortality in 2011 
alone. ``Over the course of 40 years, the Clean Air Act's 
pollution reductions have quite literally saved millions of 
lives.''
    The author then goes on to describe what he calls ``a 
fairly reliable pattern. Whenever the government considers 
environmental or safety regulations, manufacturing, energy 
companies and industry associations put out `studies' that 
grossly overestimate the costs and underState the benefits.
    ``In retrospect, the industry response to environmental 
regulation in the 1970's can best be described as mendacious, 
homicidal, greedy, whingeing'' which is Brit speak for 
pointing.
    He concludes, ``The fact that the carbon, which utility 
companies turn out is gradually cooking the climate, and when 
considering the industry response to stronger greenhouse gas 
limits, one should keep in perspective that in the past they 
have been laughably wrong and that the positions they have 
advocated would have led to the deaths of millions.''
    He continues, ``In the struggle for clean air, executives 
in the power, mining and automotive industries made fools of 
themselves at the time by cooking up economic and scientific 
arguments against pollution regulations that turned out to be 
utterly wrong. It is infuriating to see them now cough up the 
same, tired, half-baked arguments against carbon emission 
limits that they have been making wrongly for four decades 
against the whole slate of government environment and safety 
regulations, the very regulations that have made America the 
cleaner, safer Country we know it to be.''
    I take that statement from a conservative publication. This 
is not the publication of the Sierra Club; this is the 
Economist Magazine show that there is room for a principled, 
conservative position that acknowledges the reality of climate 
change, that acknowledges the reality of what is happening in 
my State.
    I am keenly aware of what the economic damage could be if 
we get this wrong in West Virginia, Wyoming, Arkansas and other 
States. I am willing to work with my colleagues to try to see 
what we can do to get that right.
    I cannot have a situation in which the other side refuses 
to acknowledge the reality of what is happening in Rhode 
Island, of what is happening in Maine, of what is happening in 
Oregon, of what is happening around the world and around the 
Country because carbon pollution, to use the Economist phrase, 
is cooking our environment.
    That doesn't even get you into what it is doing to our 
oceans. You can actually measure sea level rise. You do that 
with the equivalent of a yardstick. You can measure the warming 
of the ocean. You do that with a thermometer. This stuff is not 
complicated.
    You can measure the acidification. You do that with 
essentially pH type tests that people use for their aquarium. 
This is not complicated. When you measure it, you see it 
happening. It is real. We are in the process of having the 
ocean acidify at a faster rate than has ever occurred in the 
history of our species.
    If you never want to go near the ocean, if you never want 
to eat anything from the ocean, if you don't think the ocean 
provides anything useful in terms of oxygen and cooling for the 
planet, that may be a matter of no interest to you.
    It is pretty significant because when you go back into 
geologic time to look for the previous occasions, when you have 
seen that sort of calamitous change in ocean acidification and 
look at what is happening on the rest of the planet, those were 
not the high points for planetary habitability.
    I wholeheartedly support this rule. I urge my colleagues to 
look at both sides of the ledge, not just the fossil fuel 
industry side and with any luck, in a reasonable amount of 
time, we will be able to do the job in Congress that if we had 
done it in the first place, you might not be here having to 
answer these questions.
    Because of our failure, you have had to proceed. I don't 
think it is fair to blame you for having to proceed when we are 
the ones who failed.
    The Chair. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Ms. McCabe, are you aware of the new source performance 
standard in the existing source performance standard rules for 
coal-fired power plants as a result of the 2010 EPA Sioux and 
Settlement Agreement with the National Resources Defense 
Council and others?
    Documents obtained by the committee reveal that this 
agreement was reached in close coordination with the NRDC above 
all other petitioners, above all over interested parties such 
as the States.
    One document in particular suggests that these rules were 
crafted to please the NRDC with Gina McCarthy going so far as 
to tell the NRDC climate advisor David Doniger, ``This success 
is yours as much as mine.'' That was on the day the settlement 
agreement was made public.
    Yet, it doesn't appear that the rule is a success to any of 
the real affected parties like the States or the American 
people who are facing high electricity bills and job loss. Do 
you believe that these rules are a success of the NRDC?
    Ms. McCabe. No, Senator. These rules have come about 
because the EPA made an endangerment finding about the fact 
that CO<INF>2</INF> was harming public health and welfare and 
that we have a responsibility and an authority under Congress' 
Clean Air Act to move forward to set standards for new sources 
of carbon dioxide as appropriate for existing sources of carbon 
dioxide and we have methodically looked at the most emissive 
sectors, starting with transportation and now fossil-fired 
utilities with 40 percent of the Country's CO<INF>2</INF> 
emissions.
    Senator Barrasso. Would you say that Wyoming, West Virginia 
or any of the other States of this committee had the same input 
and access to the EPA officials as the lobbyists and attorneys 
from the NRDC in reaching this settlement agreement?
    Ms. McCabe. I speak with States all the time. They have 
very good access to discuss all of these issues with us. They 
certainly know how to reach us and do.
    Senator Barrasso. Actually, 32 States did submit legal 
objections to the rule in the form of comments, including my 
home State of Wyoming. When a majority of States object to a 
rule, I think you have done something wrong.
    I want to move on to the way you evaluate benefits. Most of 
the benefits claimed by the EPA in the 111(d) proposal for 
existing power plants come from reducing conventional 
pollutants like PM 2.5 and not carbon.
    Why is the EPA justifying a carbon rule with benefits from 
PM 2.5?
    Ms. McCabe. There actually are significant benefits 
associated with the effects of reducing carbon. Those are all 
laid out in our IRA.
    Senator Barrasso. Once again, it does seem most of the 
benefits claimed by the EPA in the proposal for existing power 
plants comes from reducing conventional pollutants like PM 2.5 
and not from carbon.
    I wonder if the EPA is double counting PM 2.5 benefits that 
it is also taking credit for in other rules. I would ask how 
you justify counting the health benefits which misleads the 
American people to the actual health benefits of the rule?
    Ms. McCabe. First of all, we certainly are not double 
counting. We are very careful in all of our regulations to make 
sure that we don't do that. In addition, it is a standard and 
an accepted approach to acknowledge when there are co-benefits 
associated with the reductions that are happening as a result 
of the rule.
    It would not make sense to not acknowledge those additional 
public health benefits and that they have value to the American 
people.
    Senator Barrasso. So you double count the co-benefits where 
you count them both over here and then both over there?
    Ms. McCabe. No.
    Senator Barrasso. The DOE announced this week that after 10 
years of work, it was canceling the FutureGen, the CCS Project, 
``in order to best protect taxpayer interests.'' That was the 
reason given.
    How can the Federal Government require the private sector 
to build CCS power plants under your proposed rule when it 
can't even build a CCS power plant on its own?
    Ms. McCabe. The rule in no way requires anybody to build 
anything in particular, including CCS.
    Senator Barrasso. DOE advisors released a study requested 
by Secretary Moniz that concluded that CCS is not ``adequately 
demonstrated and should not be required under 111(b) of the new 
sources.'' The energy experts are telling DOE that CCS isn't 
adequately demonstrated. My question is, is the EPA really 
listening?
    Ms. McCabe. We are paying attention to all the input that 
we have gotten on 111(b) as well as 111(d). I will note that 
since last fall there has been a plant operating using CCS at 
90 percent capture. That is moving along as everybody expected.
    The technology is out there in use. That is certainly not 
the only example. As I said, we will, of course, pay attention 
to all the input we get on this issue.
    Senator Barrasso. On November 12, the U.S. announced a 
U.S.-China joint climate change agreement. The announcement 
stated that the President of the United States and China had 
stated their respective post-2020 actions on climate change.
    According to the State Department, the agreement states the 
United States ``intends to achieve an economy-wide target of 
reducing its emissions by 26 to 28 percent below its 2005 level 
in 2025.'' According to the State Department the same agreement 
says that China intends to achieve the peaking of 
CO<INF>2</INF> emissions around 2030.
    We have to do all these things and there is not even 
peaking until 2030 and to make the ``best efforts'' to peak 
early and tends to increase the share of non-fossil fuels and 
primary energy consumption to around 20 percent by 2030.
    The State Department has stated in Capital Hill meetings 
that the EPA actions, such as your proposed rule for new and 
existing power plants, will achieve the reductions of 26 to 28 
percent. What role did the EPA play in setting these big 
targets for the U.S. in the U.S.-China agreements and what role 
do you see Congress playing in setting this policy, of which 
the economic impact is sweeping?
    Ms. McCabe. I may have misheard you, Senator, but to the 
extent that you suggested that the Clean Power Plan was 
intended to achieve the 26 to 28 percent all by itself, that is 
certainly not correct.
    Senator Barrasso. It is a big part of it, not all by itself 
but a significant part of it.
    Ms. McCabe. It is significant reductions as are the clean 
car rules, as are other things.
    Senator Barrasso. The question is, what role did the EPA 
play in setting these targets in the U.S./China agreement?
    Ms. McCabe. We have, as have many agencies, participated in 
conversations and discussions about what types of approaches 
would be feasible within our authorities to reduce carbon 
dioxide.
    Senator Barrasso. What role do you see Congress playing in 
setting this policy?
    Ms. McCabe. This is a matter for the President as he is 
discussing these targets in the international community. I am 
sure that he is paying attention.
    Senator Barrasso. Is the Administration's position that 
Congress has no role, responsibility, obligation or opportunity 
in all of these things?
    Ms. McCabe. Senator, I don't want to speak to that today. 
That is not really my responsibility. I would defer that to 
others to speak about. I am focused on the Clean Air Act and 
our authorities under that.
    Senator Barrasso. Senator Whitehouse, who has left, was 
quoting The Economist on some issues. Regarding the specific 
deal between the United States and China, The Economist said 
that the costs to the United States are much more real than 
they are to China.
    It is something many of us here oppose and are going to 
continue to try to dismantle.
    Thank you, Mr. Chairman.
    The Chair. Thank you, Senator Barrasso.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    First, I want to put in the record a PolitiFact that when 
Mitch McConnell says U.S./China climate deal means China won't 
have anything to do for 16 years, PolitiFact found that mostly 
false. I want to put that in the record, if I can.
    The Chair. Without objection.
    [The referenced information follows:]
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Boxer. Thank you.
    We are hearing from a couple of my Republican friends, they 
are my friends, this isn't personal, this is quite important, a 
series of scare tactics about the results of continuing to 
implement the Clean Air Act. I want to compliment you, Ms. 
McCabe, for your very calm presentation.
    This is a situation where the Clean Air Act requires you to 
act. It doesn't require us to act; it requires you to implement 
the Act unless we repeal the Clean Air Act. I haven't heard 
anyone say they want to repeal the Clean Air Act. If they do, 
bring it on.
    It is true that since Richard Nixon signed the modern Clean 
Air Act in 1970--I want to make sure this jibes with your 
understanding--the U.S. GDP has grown by 219 percent, private 
sector jobs have grown by 101 percent and common air pollutants 
have dropped by 72 percent. Is that your understanding?
    Ms. McCabe. That is my understanding.
    Senator Boxer. Senator Sullivan, I think in a very 
aggressive way and good for him, said that Obama is abusing his 
authority. I want to place into the record how many executive 
actions the last three Presidents took: Clinton, 364; George W. 
Bush, 291; and Barack Obama, 200.
    Maybe I am wrong but I have not really heard anyone on the 
other side complain about George W. Bush's 291 executive 
orders, Nixon's 346 executive orders, or Regan's 381 executive 
orders. However, with Barack Obama's 200, oh, my God, the sky 
is falling. Isn't this awful.
    I am sorry, the record just disproves your point.
    I believe this not an Administration gone rogue. This is an 
Administration following the Clean Air Act. Don't you agree 
that is what you are doing?
    Ms. McCabe. That is what we are doing.
    Senator Boxer. Don't you agree there have been three 
Supreme Court decisions that tell you that you need to proceed? 
The first case was Massachusetts v. EPA, the second case was 
American Electric Power v. Connecticut; and the third was 
Utility Air Resources Group v. EPA. Is that correct? Is that 
your understanding?
    Ms. McCabe. Correct.
    Senator Boxer. Don't you have to follow the law?
    Ms. McCabe. We do.
    Senator Boxer. Don't you have to follow the Supreme Court?
    Ms. McCabe. We do.
    Senator Boxer. The Supreme Court in that last case, which 
Senator Sullivan quoted, confirmed the Clean Air Act covers 
carbon pollution. Isn't that correct?
    Ms. McCabe. Correct.
    Senator Boxer. If you didn't do your work, you would be 
sued for not doing it. Am I right?
    Ms. McCabe. In all likelihood, we would.
    Senator Boxer. I think so because I know some of the folks 
that would do it, including me, probably, if I had a chance. We 
have a lot of people at home who care about clean air. We have 
the largest number of people. We are up to 38 million people. 
Cleaning up the air is a primary focus.
    With all due respect and admiration, we get along so well, 
I have to say my Chairman misconstrues the votes in the Senate. 
I am going to put in the record the actual votes, if I might.
    The Chair. Yes.
    Senator Boxer. Here is what they are. October 30, 2003, 
McCain-Lieberman went down. It was McCain's bill and was called 
The Climate Stewardship Act of 2003. He was right, it went 
down. We only had four Republicans: Collins, Greg, McCain and 
Snow, 43 to 55.
    On June 22, 2005, the McCain amendment, 826, went down in a 
worse way, 38 to 60. Then we had Chaffee, Collins, Greg, Lugar, 
McCain and Snow, Republicans. On June 6, 2008--this is the one 
I remember--the Lieberman-Warner Climate Security Act of 2008 
lost because it was a filibuster. Six people were absent and 
they asked their intention to vote yes be entered into the 
record. We actually had 54 votes at that time. We didn't have 
the 60 but we had a majority.
    What I want to say to you is in this recent debate on 
Keystone, here is what happened: 99 to 1, the White House 
amendment declaring that climate change is not a hoax passed 
with the support of the Chairman and 59 to 40, the Hoeven 
amendment said climate change is caused by human activity won 
the day, 59 to 40 but was filibustered, so it never got where 
it should have gotten.
    Then the Schatz amendment, which says climate change 
significantly is caused by human activity, passed 50 to 49.
    My colleague from Mississippi went into this whole thing 
about that great movie, The King's Speech. I didn't quite get 
the connection but it was cleverly put forward.
    The bottom line is he is saying that these two newspapers 
are confusing the matter. I am going to put into the record all 
of the news outlets that reported this story. I have 40 and 
there are many more.
    Let me tell you who is included who said the same thing: 
The Christian Science Monitor, UPI, Chicago Sun Times, Reuters, 
AP, Financial Times, Politico, USA Today, National Journal, 
Virginia Pilot, Time Magazine, Newsweek, Kansas First News, 
National Geographic, Blumberg, Smithsonian Magazine, and Salt 
Lake City Tribune.
    There was no question that all these outlets reported this 
not because they reported it for any particular reason other 
than this is the truth.
    Unless my colleague from Mississippi has a right to say 
that he doesn't believe in NOAA and doesn't believe in NASA, 
this is a fact. You cannot make up this stuff. Would you agree 
this is accurate reporting?
    Ms. McCabe. That is certainly what I have understood from 
those agencies you mentioned.
    Senator Boxer. Thank you very much.
    Climate change is projected to harm human health. I wish my 
colleague from Mississippi was here because I really would love 
to get into a debate with him but he is not here because we all 
have so many obligations and I understand.
    We know that climate change increases ground level ozone 
and particulate matter in some locations. Is that accurate?
    Ms. McCabe. That is accurate?
    Senator Boxer. When you cleanup this carbon, you are really 
helping the health of the people. Isn't that true?
    Ms. McCabe. That is correct.
    Senator Boxer. Relying upon substantial scientific 
evidence, EPA determined that man-made climate change threatens 
both public health and public welfare. Is that correct? My 
understanding is that was put forward in Coalition for 
Responsible Regulation v. EPA? That was the case.
    Ms. McCabe. That was the endangerment finding, correct.
    Senator Boxer. In the endangerment finding, you found 
extreme weather events, changes in air quality, increases in 
food and water borne pathogens. We know that happens because we 
know it happened in a lake in Ohio which was devastating. We 
know these increases in temperature are likely to have adverse 
effects. Is that correct?
    Ms. McCabe. That is correct.
    Senator Boxer. Isn't it clear that those of us who believe 
that carbon pollution does increase the likelihood that people 
will have breathing difficulties and heart attacks a proven 
fact?
    Ms. McCabe. Yes, it is.
    Senator Boxer. Thank you.
    Thank you, Mr. Chairman.
    The Chair. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Thank you for your time this morning.
    I would like to read a bit of a summary of what has 
happened in my State of South Dakota and the challenges that we 
face. I would then like your response, please.
    In the year 2012, the base year, South Dakota's Native 
electricity production was approximately 74 percent renewable 
energy and 26 percent from fossil fuels. We have one coal-fired 
power plant that employs 80 people, the Big Stone plant, and 
one natural gas combined cycle plant, the Deer Creek Station.
    Each of these plants dispatches power into a different 
regional transmission organization. In your plan, you 
calculated Deer Creek Station's actual 2012 capacity factor at 
1 percent despite the fact that the Deer Creek Station was not 
commercially operational until August of that year.
    Had the EPA considered Deer Creek Station under 
construction in 2012, the plan would have assigned Deer Creek 
an assumed capacity factor of 55 percent in the year 2012.
    Because of these calculations in your plan, it would 
require that the Big Stone plant, the coal-fired plant, which 
now operates approximately 8,000 hours a year to operate at 
between 2,000 and 2,500 hours per year in order to comply with 
your targets for the State of South Dakota.
    The results of this coal plant running less than half of 
the time it runs now doesn't work. The Big Stone plant employs 
approximately 80 people. Under your preferred plan, we simply 
have to wonder whether or not those jobs would remain in the 
State or whether the plant would continue to operate.
    Further, operating a baseline or a baseload coal unit 2,000 
hours per year is literally uneconomical and is basically 
unfeasible. Big Stone power plant and Deer Creek Station 
operate in separate RTOs. The electricity in one RTO cannot be 
transferred to the consumers in another RTO who depend on the 
plants to keep on their lights.
    Adding an additional layer of complexity to this is the 
fact that the Big Stone plant is in the middle of a $400 
million upgrade in order to comply with the EPA's regional haze 
rule and South Dakota's 2012 State implementation plan to 
comply with that rule.
    This project isn't completed yet and after a $400 million 
investment--the largest single private investment our State has 
ever seen--you are now telling this plant they may not even be 
able to operate at all in order to comply with your latest 
regulations.
    My question is this. We have a limited number of electric 
generating resources in South Dakota. Each facility is 
absolutely vital to meeting the energy needs of my State and 
our surrounding States.
    In light of this, what if any flexibility is built into 
your proposed rule for a State like South Dakota? What 
flexibility is there for facilities in the midst of a major 
upgrade at your direction and are now being told they need to 
do even more to meet these additional regulations you plan on 
implementing?
    Ms. McCabe. We certainly welcome conversations at this 
level of detail from States. We are having many of them. I 
trust and hope your State has provided that input to us in 
their comments and that we are having those conversations.
    I want to emphasize that the proposal we put out is not 
proscriptive. We do think States can find ways to reduce carbon 
in order to meet the targets. We are looking very closely at 
all of the kinds of issues you are raising with us.
    In particular, if States think we got something factually 
wrong, we have urged them to tell us. Many have. Again, I 
presume your State is having that conversation with us. If we 
got something factually wrong, we will address that because we 
want to make sure the final rule is appropriate and correct and 
still maintains flexibility.
    There are opportunities across the regions and across the 
States to have investment in clean technologies, energy 
efficiencies and renewables. I believe your State has been a 
leader in some of those technologies. We applaud that. That is 
why we think this can work.
    We also appreciate there are complexities. Especially in 
the west, there are large States who are divided in terms of 
their energy markets. We are having conversations with States 
and with the energy regulators about those sorts of issues to 
make sure the final Clean Power Plan can accommodate all those 
sorts of considerations.
    Senator Rounds. To the best of my knowledge, we have 
received no suggestions of how to fix the problem we share with 
you today. This is a major proposal. Clearly we think there 
should be a significant amount of thought put into the original 
rule to begin with.
    Ms. McCabe. Yes.
    Senator Rounds. We have no feedback suggesting there is an 
alternative at this stage of the game. I am curious, are you 
suggesting that a final rule would be significantly different 
than the proposed rule based upon the information we have 
already provided to you?
    Ms. McCabe. I am suggesting, as is usually the case with 
EPA regulations, the comments we receive may well lead to 
adjustments in the final rule. In fact, I do not have any 
experience with an EPA rule where that has not happened.
    That is why the public comment process is so important. I 
would emphasize that even beyond the formal public comment 
process, the tremendous relationship and discussions we have 
had with States and stakeholders is to make sure we get this 
right.
    Yes, to the extent that adjustments are appropriate within 
our authority and needed to make sure the rule can work 
properly, we certainly will be looking at those kinds of 
things.
    Senator Rounds. All of us want clean air. The challenge is 
how do we get there? How do we maintain what we have already? 
How can we afford to pick up the costs for making it better in 
the future?
    The United States Chamber of Commerce in a report last year 
suggested that the cost to the average American family would be 
approximately $1,400 per year to comply with this particular 
rule.
    Did you have or are you aware of what the estimated costs 
were when the rule was proposed or what the anticipated costs 
would be to a family to comply with this rule?
    Ms. McCabe. For every significant rule like this, we do a 
regulatory impact analysis along with the proposed rule. We did 
that here. It is all available for everyone to take a look at.
    I am not sure about the specific study you cited, but we 
did do a forward look. I need to make sure everyone knows that 
because States will ultimately decide exactly what to do, our 
projections can only be illustrative. We are confident States 
will make the best choices for the families within their 
borders and that will take into consideration the costs.
    This rule is all built on the things happening now in this 
industry. Utilities are using less carbon intensive, more 
economical fuels, investing in renewable energy and investing 
in energy efficiency. Those things together reduce carbon 
emissions but overall, because of the tremendous impact energy 
efficiency can have in the amount of energy we use, we expect 
bills to go down.
    Senator Rounds. Mr. Chairman, my time is up. May I just 
read one sentence into the record?
    In July 2014, the South Dakota Public Utilities Commission 
said ``Some South Dakotans will see their electricity rates 
almost double as a result of the CPP disproportionately 
impacting the Midwest.''
    Thank you.
    The Chair. Thank you, Senator Rounds.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for this very 
important hearing.
    Thank you, Ms. McCabe, for testifying about the 
Administration's actions to protect clean air by reducing 
carbon emissions for power plants.
    From my perspective, the science is clear. Climate change 
is real. The burning of fossil fuels contributes to it 
significantly and is an immediate threat to families and 
communities in every corner of this Country and the world.
    Industrial activity in the United States has been a major 
contributor to carbon pollution over the years. Whether we like 
it or not, our Country has the dubious distinction of having 
been a leader in creating the problem. Now, thanks to the hard 
work of this Administration, we are on track to solving this 
problem.
    Something I think is often overlooked by many of the 
opponents of rules that limit carbon pollution from power 
plants is the benefit families will see in terms of public 
health. The Administration's proposed rules are strongly 
supported by health professionals.
    In fact, I am sure you are aware the Academy of Pediatrics, 
the American Heart Association, the Lung Association, the 
Thoracic Society, the Public Health Association and several 
other public health organizations sent a letter to the EPA 
which stated, ``The changing climate threatens the health of 
Americans alive now and future generations. Consequently, the 
Nation has a short window to act to reduce those threats.''
    Given that statement from some of these leading and well 
respected public health organizations, can elaborate on the 
public health risks that American families will continue to 
face if we fail to act to reduce carbon emissions from power 
plants?
    Ms. McCabe. There are some pretty immediate impacts. As we 
see temperatures go up, those kinds of conditions are more 
conducive to ozone formation. Ozone has very well demonstrated 
immediate impacts on families, including exacerbating asthma, 
bringing on asthma attacks leading to all kinds of medical 
expenses as well as missed school and work.
    Severe drought which is occurring has significant impact on 
public health. The changes in temperatures are changing the 
seasons of various allergens and changing the patterns of 
various vectors that can lead to disease.
    These are the kinds of things that scientists are seeing as 
a result of occurring climate change impacts.
    Senator Gillibrand. The northeast has recently experienced 
a greater increase in extreme precipitation than any other 
region in the Nation. Sea level rise along New York's Atlantic 
coast has exceeded 18 inches since 1850.
    Recently, the northeast has experienced extreme weather 
events that are more intense and frequent than we have seen 
before. While there is much talk of the potential cost of 
reducing emissions, there are significant costs to the economy 
if we decide to do nothing.
    Has the EPA looked at the cost to other areas of the 
economy of failing to enact strong carbon emissions reductions? 
Would you agree that the cost of rebuilding our infrastructure 
and shorelines, providing billions of dollars in disaster 
assistance every year from extreme weather and destructed 
agriculture and fishery production, among other economic 
effects, far outweigh the cost of comply with the rules?
    Ms. McCabe. I certainly would. The greatest cost is to do 
nothing. The kinds of impacts you cite are ones scientists say 
are happening and will happen more in the future. Those are 
very, very costly events.
    Particularly implementing the rule as we have proposed it 
here, providing flexibility for States to invest in their local 
communities, bring jobs, invest in energy efficiency, which 
will reduce the need for electricity, provides very positive 
economic benefits.
    Senator Gillibrand. Thank you, Mr. Chairman.
    The Chair. Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    Thanks, Ms. McCabe, for being here.
    I want to thank my colleagues for letting me jump ahead 
because I have another commitment in a few minutes. I will be 
brief.
    As you know, I submitted requests for documents on these 
rules and development of these rules in the last Congress. EPA 
is still producing some of those documents but from what has 
been produced, there is a dramatic pattern of very frequent, 
detailed meetings and phone calls and emails between EPA and 
NRDC, a leading outside environmental group.
    The number of these communications is pretty staggering and 
unprecedented as far as I can see. In addition, there is some 
correspondence between EPA and NRDC that has not been produced 
or posted to the docket. Why is that and will that excluded 
correspondence and documentation be submitted?
    Ms. McCabe. I am not exactly sure of the answer to that 
question. I will be glad to get back to you on that.
    Senator Vitter. If you could get back to us, hopefully that 
will be corrected in terms of the docket by including that 
additional correspondence and documentation.
    Some things have been produced by EPA already. It shows a 
level of communication and detail and consultation that I think 
is pretty staggering. Let me put up one email of June 2013 
before the rule was proposed.
    In this, NRDC attorney, Dave Hawkins, advised senior EPA 
air official, Joe Goffman, ``As long as the compliance date for 
the FIP 111(d) emission limits is a few years after the SIP 
submission deadline, it appears EPA can promulgate back stop 
FIP limits even in advance of the June 16 SIP submission 
date.''
    There is very detailed advice, direction I would say, 
before the rule was even proposed. Do you think that sort of 
thing is appropriate?
    Ms. McCabe. We get a lot of detailed advice from a lot of 
people and have many meetings with a lot of different 
stakeholders who weigh in with us. We take all of that input 
and put it in a proposed rule which is fully open for everyone 
to look at.
    If the rule is not grounded in science and the law, then 
people tell us. That is how we proceed.
    Senator Vitter. Prior to this email, had EPA even 
considered issuing a model FIP?
    Ms. McCabe. I can't speak to exactly when we would have had 
those conversations, but I can assure you that the notion of a 
Federal implementation plan is fully laid out in the Clean Air 
Act. That is what is motivating us to think about the need for 
a backstop Federal plan.
    Senator Vitter. If you could followup and answer that 
question directly, whether EPA considered issuing a model FIP 
prior to the email, that would be useful.
    Did NRDC's advice have significant bearing on the model FIP 
EPA is now developing?
    Ms. McCabe. We have not yet proposed a model FIP. We are 
going through that process right now. We have gotten a number 
of comments in the public comment period from a variety of 
stakeholders urging us to consider doing a model FIP. We will 
be working our work through the process to figure out what the 
appropriate proposal is.
    Senator Vitter. Is EPA planning to issue its model FIP 
before the SIP deadline?
    Ms. McCabe. We announced in January that we intended to 
propose a FIP this summer around the same time that we finalize 
the 111(b) and 111(d) rules.
    Senator Vitter. That would be before the other deadline?
    Ms. McCabe. I am not sure which deadline you are talking 
about. Are you talking about the deadline for States to submit 
plans?
    Senator Vitter. Correct.
    Ms. McCabe. That deadline has not yet been finalized. That 
will be finalized in the final rule. We proposed it would be 13 
months after the 111(d) rule is finalized. We will have a 
proposed FIP out in the summer. I would expect we would have 
that finalized within a year.
    Senator Vitter. I just want to point out that it is 
perfectly consistent with this direction and advice.
    My final question is this. I continue to be very concerned 
with the very secretive work on the social costs of carbon 
estimates. I asked you previously for the names and titles of 
those folks under your supervision in the Office of Air and 
Radiation who have participated in the Interagency Working 
Group. We haven't gotten that. Can you provide that to us?
    Ms. McCabe. It really has not been a secretive process at 
all. The GAO has confirmed that it was not an inappropriate 
process and that agencies across the government participated. 
It is not a process that the EPA was in charge of. I feel we 
have been responsive.
    Senator Vitter. Can you provide me the names and titles of 
those folks under your supervision in the Office of Air and 
Radiation that participated in the Interagency Working Group?
    Ms. McCabe. I will take back that question and we will get 
you a response to that.
    Senator Vitter. So it is not a secretive process but you 
won't commit to that?
    Ms. McCabe. It is not a secretive process.
    Senator Vitter. Will you commit to that?
    Ms. McCabe. I will commit to get back to you.
    Senator Vitter. You won't commit to that. Thank you.
    The Chair. Thank you, Senator Vitter.
    Let me thank both Senators Boozman and Capito who have been 
very flexible with their time to accommodate the others. I 
appreciate that very, very much.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Ms. McCabe, welcome. It is very nice to see you. Thank you 
for joining us today. Thank you for your service. You have a 
tough job. We appreciate your willingness to do it.
    For those of us who live in States, there are actually 
millions of people in States already seeing the impacts of 
climate change. The EPA's proposal to regulate our Nation's 
largest sources of carbon pollution has been, frankly, a long 
time coming.
    However, with any substantial regulatory action, there is 
always room for improvement. While we strive for perfection--I 
think all of us strive for perfection--we know it is hard to 
achieve.
    I look forward to working with our colleagues on this 
committee, the Senate and the House, working with the 
Administration and other stakeholders in trying to make sure 
this regulation, as good as it is, becomes even better before 
it is finalized.
    One such issue I hope to address is inequities in the State 
targets. We had some discussion of this before. It is my 
understanding that different States will have different targets 
based on feasibility of electrical systems and other variables 
under the Clean Power Act.
    However, as written, I have heard from stakeholders that 
the proposal requires more of States that have already made 
substantial carbon reductions. Believe it or not, one of them 
is my State, Delaware. It would require more of us than States 
who have not yet acted.
    For example, Delaware has already made substantial 
investments in energy efficiency and cleaning up coal plant 
emissions compared to a lot of other States. These stakeholders 
have expressed that if this issue is not addressed, States may 
be at a competitive disadvantage.
    Have you heard similar concerns from other stakeholders? If 
the answer is yes, is the EPA considering adjusting the State 
targets to address these inequities? If so, what are those 
possible actions?
    Ms. McCabe. This certainly is an issue that has been raised 
in comments from all different directions and from a number of 
different stakeholders. It is something to which we are paying 
a lot of attention. In fact, we paid so much attention to it 
that in the fall we put out a Notice of Data Availability 
identifying some of the issues people had raised so we could be 
sure to get as much input as possible on it.
    Our final rule has to be founded in our authority under the 
Clean Air Act to determine the best system of emission 
reduction for this sector. That is what we will be striving to 
do but we are looking very closely at all of these things.
    While I can't speak to what any final decisions might be, 
because the rule won't be final until June or mid-summer, I can 
assure you that we are looking hard at those questions. We 
certainly don't want a rule that will disincentivize States 
from moving forward with early actions. That would not be good.
    We want to make sure that we make as many adjustments as we 
can to, as you say, improve the rule while staying within the 
legal authority that we have.
    Senator Carper. There is a precedence for this--I think it 
is in Medicaid--for States that acted early in terms of 
increasing coverage under Medicaid. Under the Affordable Care 
Act, they were actually put at a disadvantage. I think we 
managed to fix that. My hope is we can be sure to do the same 
thing here.
    I come to the issue before us today with a unique 
perspective. As the Senator from West Virginia knows, I was 
born in a place called Beckley. I don't come from a place 
called Hope. I come from a place called Beckley, West Virginia. 
I still have a lot of family in the Mountain State and had the 
opportunity to go back there as recently as last month.
    The importance coal plays in the livelihood of a lot of 
folks, not just in West Virginia but in other places, is real 
to me. However, I now live and have the privilege of 
representing Delaware which is the lowest lying State in the 
entire United States of America.
    I understand if we don't curb our power plan fossil fuel 
emissions over time, significant portions of my State will be 
lost to the sea. In fact, some parts of it are already starting 
to be lost to the sea.
    Can you take a few moments to talk with us about how this 
rule might address both concerns? How does this rule help make 
sure that my native State, West Virginia, doesn't end up in 
economic ruin or damaged substantially while at the same time 
helping to make sure my State remains on the map?
    Ms. McCabe. Let me address those things first, Senator.
    As has been discussed this morning by many of the committee 
members, CO<INF>2</INF> emissions need to be reduced globally 
in order to addressing the kinds of impacts in Delaware about 
which you speak.
    This is one step that the United States can take which the 
Clean Air Act authorizes us to take along with others that this 
Country and others must take in order to address this. We 
believe that is a responsible and appropriate thing to do.
    We are very aware of the impacts occurring in the 
electricity generating sector today. There are many forces that 
way beyond what EPA might or might not do in this or any other 
rule that is changing the way energy is produced in this 
Country. As we talk with the industry, we understand that from 
them.
    We also understand that can have impacts on local 
communities built up around certain types of industries. This 
is not the first time that has happened. We must be very, very 
sensitive to those impacts as well.
    This rule, as we predict, looks to the future. We see a 
significant portion of power in this Country still being 
generated by coal, about 30 percent. It will be clean and well 
controlled coal and investments there are very important.
    We see another 30 percent being fueled by natural gas, 
another very important domestic industry that employs many, 
many people in this Country. There are other sources of energy, 
including ones where there is tremendous opportunity for 
investment in our local communities--thinking of renewable and 
energy efficiency, particular.
    For we are keeping all of those things in mind and fully 
believe that the flexibility this program allows will allow for 
that range of types of operations. That is good and healthy.
    Senator Carper. One of the major sources of electricity 
generation of which I am aware, which does not create any 
emissions or harm, is nuclear. That provides electricity for 
about 20 percent of our need in this Country and has for a long 
time.
    My staff and I continue to hear concerns that the EPA is 
not treating all zero emission resources the same in this 
proposal. Specifically, we have heard that the proposal 
discounts nuclear generation in the State targets as compared 
to renewable energy putting nuclear energy at a disadvantage to 
other clean technologies.
    Why does the proposal discount nuclear generation? What is 
the EPA doing to address this issue?
    Ms. McCabe. This rule is about the fossil fuel-fired 
electricity generation. That is the sector that emits the air 
pollutants we are authorized to address. Looking at the types 
of emission reduction approaches that fossil fuel-fired 
generation fleet can adopt, we identified some key approaches 
that industry is now taking, shifting to less carbon intensive, 
energy efficiency, renewable and all that sort of thing.
    This rule is not an energy plan. It should not be an energy 
plan. That is not Administrator McCarthy's job. We understand 
the significant role nuclear power generation plays in the 
Country and that it is subject to various pressures and issues.
    We want to make sure States who have invested in nuclear 
energy and wish to do so, that can be a significant compliance 
option for States. It will be.
    We have received a lot of comment on the exact question you 
asked about how we figured that into the targets. We will be 
sorting through all that information and resolving that in the 
final rule. We take the point people are making very seriously 
on that question.
    Senator Carper. My time has expired. Thank you so much for 
taking that seriously.
    The Chair. Thank you, Senator Carper.
    To the last and arguably the most patient members of the 
Environment and Public Works Committee, I appreciate very much 
your patience. Senator Capito, you are next.
    Senator Capito. Thank you, Mr. Chairman.
    I would like to thank Ms. McCabe for coming before us today 
to discuss this extremely important rule.
    I hope you know that I represent the State of West 
Virginia.
    Ms. McCabe. I do.
    Senator Capito. Thank you.
    We have just under 2 million hardworking Americans who 
receive 95 percent of our electricity from coal power 
generation. The West Virginia coal industry supports families, 
strengthens national security and affordably powers not only my 
State but provides affordable electricity to many of our 
neighbors. We export over half the electricity that we produce. 
We could be keeping the lights on in this room.
    Like many colleagues, I have some serious concerns about 
the proposed regulations. I am concerned about the cost to the 
taxpayer and also to the bill payer. We have already heard 
today that 32 States have raised serious objections.
    A large percentage of our Country's power comes from coal, 
yet you predict by effectively eliminating one-half of our 
energy generation, we will reduce electricity prices by 8 
percent. This, to me, doesn't simply add up.
    In our State, our monthly electrical bills are 23 percent 
lower than the national average because our coal is cheap, 
reliable and very plentiful.
    I am also concerned that in formulating these regulations, 
EPA has not considered the impact. You kind of touched on this 
but I think we need to get into it some more, the reliability 
of our electricity grid.
    You don't really have great track record here because if 
you look at the max rule, the EPA predicted that regulation 
would result in the closure of 5,000 megawatts of generating 
capacity. In reality, the DOE now says that between 50,000 and 
60,000 megawatts of generation capacity will be taken offline. 
That is a ten times mistake.
    The cumulative effect of these regulations on our grid 
cannot be overstated. I think there is concern about the 
reliability. Looking back to last winter and touring some power 
stations, First Energy and others in my State, some of these 
coal-fired power plants to be taken offline were running at 
near capacity to keep our homes and our seniors warm.
    Our hardworking coal miners in West Virginia have made our 
State the second largest coal producer behind Senator 
Barrasso's State of Wyoming. We mine it, we transport it, we 
burn it, our families depend on it. It has a huge economic 
impact.
    You say in your opening remarks that EPA stakeholder 
outreach, public engagement and preparation have been 
unprecedented. You talked a lot about, I think you said, the 
millions of comments. How many comments? A lot?
    Ms. McCabe. A lot.
    Senator Capito. I am interested in your definition of 
outreach. This is not just me. Senator Manchin has lodged an 
invitation for the EPA to come to a coal-producing State like 
West Virginia--please West Virginia--to talk about these. None 
of the meetings on this were ever conducted in the coal-
producing States, certainly not in the State of West Virginia.
    I reached out and invited EPA to come to West Virginia to 
talk about the economic impacts of this rule and these rules in 
our State.
    Can we count on EPA to come and talk to the people of West 
Virginia about how this is affecting their livelihood and their 
electrical bills? Why haven't you come to a State like West 
Virginia to talk about this with its citizens?
    Ms. McCabe. There is a lot in what you just said. I will do 
my best to respond. I want to mention a couple things because 
you raise some very real points. I appreciate your thinking 
about your State as of course you would.
    The estimates and the projections we include in our RIA for 
this rule are illustrative because we don't know exactly what 
every State will do. They are also at a national level, so we 
understand there could be some differences in how regulations 
impact local or regional areas that might differ from 
nationally. We are hearing a lot in the comment from people 
about that. It is important that we hear that.
    I also want to mention that in establishing the targets in 
the rule, somebody mentioned earlier that the targets are 
different for every State. They are and indeed, the one result 
of that is that very coal intensive States actually remain coal 
intensive, even under our proposed rule.
    I come from Indiana which is in the 93 to 95 percent. Those 
States as we looked at the application of these different 
technologies across the Country, States like yours and mine 
that are very coal intensive remain that way. Their targets are 
not as onerous some would say as States that are less coal 
intensive.
    The design of the rule was to take each State where it was 
in its power generation and acknowledge that. Some of that is 
what was prompting Senator Carper to note that some States 
perceive inequities in the rule because of that.
    We very much tried to build this into the design of the 
rule because we recognize there are differences around the 
Country. It is not reasonable to expect Indiana or West 
Virginia to suddenly become a Delaware in terms of its energy 
mix. That just won't happen.
    Wherever the State is, whatever its mix is, there are 
opportunities there. There are opportunities in Indiana, West 
Virginia and everywhere to reduce the carbon intensity of the 
power production. That is how the rule lays out the process.
    To the extent we haven't got it right, people are telling 
us how they think we should adjust it in order to get that 
right.
    Senator Capito. What about the visit to West Virginia? Why 
didn't you visit coal producing States?
    Ms. McCabe. We did have a lot of meetings around the 
Country. We met in many States. When we were scheduling 
national level meetings, we wanted to have those in locations 
where people were comfortable coming. We used a lot of EPA 
offices.
    Senator Capito. That is not really a great answer. I am not 
trying to be antagonistic. I don't think it is a great answer. 
You can get to West Virginia. We are not that isolated. It is a 
beautiful spot.
    This heavily impacts the economics of our State and our 
ability to compete. All the time we get, you have to transition 
out of coal, you have to make a change and all these kinds of 
things. You say we have to use CCS technology or you have to 
use clean coal technology. It is not economically feasible. It 
hasn't been proven to be able to be run in a cost efficient 
way. We are beyond that.
    Do I want that? Yes, I want that because that will help my 
State tremendously. Let's push forward on the research and 
development.
    In the final analysis, of the 32 States that have lodged 
major objections, what if the States refuse to submit a plan? 
What is the EPA's reaction to that?
    Ms. McCabe. I would be happy to answer. First, if I could 
say we got comments from a lot of people. Because this is a 
proposed rule, everybody always tells us things they we can do 
better.
    Senator Capito. It sounds like us. We get that too.
    Ms. McCabe. We welcome that. I am not counting, I don't 
have States in a tally but to answer your question, the Clean 
Air Act says if a State does not submit a plan or a State 
submits a plan that is not approvable, then EPA would put in 
place a Federal plan to implement the obligations we finalize 
in the rule.
    Senator Capito. You mentioned forming regional alliances. I 
guess there is one in the northeast. If someone was listening 
to me say coal provides 95 percent of the electricity in my 
State of West Virginia, who is going to want to be my regional 
alliance?
    Ms. McCabe. I think States are having a lot of 
conversations about that. States will need to find mutual 
reasons to come together. They also don't have to. I am not 
sure what conversations West Virginia is having with other 
States.
    Senator Capito. Again, because of where we are, what we 
have, the natural resource we have, we are definitely 
disadvantaged.
    Thank you.
    The Chair. Thank you, Senator Capito.
    I want to recognize Senator Boxer.
    Senator Boxer. On behalf of Senator Sanders, thank you, Mr. 
Chairman.
    He really wanted to be here but he is at a Budget Committee 
hearing. He wrote a very interesting opening statement where he 
quotes the Department of Defense saying climate change is an 
immediate risk to U.S. national security. I ask to put that 
entire statement in the record.
    The Chair. Without objection, so ordered.
    [The prepared statement of Senator Sanders follows:]

            Statement of Hon Bernard Sanders, U.S. Senator 
                       from the State of Vermont

    Last month, the National Oceanic and Atmospheric 
Administration and the National Aeronautics and Space 
Administration determined that 2014 was the warmest year ever 
on record.
    The determinations by NOAA and NASA highlight a pattern of 
continued and alarming temperature increases. For instance, the 
ten warmest years on record have all occurred since 2000, and 
this past year the months May, June, August, October, and 
December were the hottest instances of each of those months 
ever recorded.
    For those of us who have been focusing on this crisis, this 
comes as no surprise. In 2009, the U.S. Senate received a 
letter signed by virtually every major scientific organization 
in this country. In that letter, these scientific organizations 
wrote the following:
    ``Observations throughout the world make it clear that 
climate change is occurring, and rigorous scientific research 
demonstrates that the greenhouse gases emitted by human 
activities are the primary driver. These conclusions are based 
on multiple independent lines of evidence, and contrary 
assertions are inconsistent with an objective assessment of the 
vast body of peer reviewed science. Moreover, there is strong 
evidence that ongoing climate change will have broad impacts on 
society, including the global economy and on the environment. 
For the United States, climate change impacts include sea level 
rise for coastal states, greater threats of extreme weather 
events, and increase risk of regional water scarcity, urban 
heat waves, western wildfires, and a disturbance of biological 
systems throughout the country. The severity of climate change 
impacts is expected to increase substantially in the coming 
decades.''
    At least 37 American scientific organizations, 135 
international scientific organizations and national academies, 
and 21 medical associations share these views: climate change 
is real, it is significantly caused by human activities, and it 
poses grave risks to the planet.
    These risks truly are grave. The Intergovernmental Panel on 
Climate Change estimates that without any additional efforts to 
reduce greenhouse gas emissions, ``warming is more likely than 
not'' to exceed 7.2 degrees Fahrenheit by the end of the 
century, and sea levels have already risen by nearly seven 
inches over the last century, and are expected to rise another 
10 inches to more than two and a half feet by the end of this 
century.
    That the scientific community shares an overwhelming 
consensus about the perils of climate change should be enough 
to provoke aggressive action on our part to reduce greenhouse 
gas emissions.
    But it isn't just the scientific community. The chorus of 
those sounding the alarm is already vast and continues to grow: 
key players in the insurance and financial industries, 
including Munich Re, Swiss Re, Standard & Poors, and the World 
Bank; a wide array of prominent economists and prominent 
Republicans like former Secretary of State and Treasury George 
Schultz and former Treasury Secretary Hank Paulson; more than 
700 major U.S. companies, including Google, eBay, Intel, and 
Nike are calling for climate action; and a host of former EPA 
Administrators appointed by Republican presidents among them.
    In fact, even our own national security community is 
sounding the alarm. Less than 1 week ago, the President 
released the National Security Strategy. Among its most 
important conclusions: climate change is one of our country's 
``top strategic risks.''
    In October, the Department of Defense called climate change 
a ``threat multiplier'' and concluded that it poses an 
``immediate risk to U.S. national security,'' amplifying calls 
by numerous national security experts for assertive climate 
action, including former National Security Advisor Tom Donilon, 
former Secretary of State Madeleine Albright, former Secretary 
of Defense and U.S. Senator William Cohen, and General Wesley 
Clark, the former Supreme Allied Commander Europe of NATO.
    Our challenge, consequently, is to dramatically reduce our 
greenhouse gas emissions, and the proposal under discussion in 
today's hearing does exactly that. Power plants are the largest 
source of the nation's harmful carbon pollution accounting for 
nearly 40 percent of all carbon released into the air. The 
Environmental Protection Agency's proposed reductions in carbon 
pollution focus on the most important source of greenhouse gas 
emissions among power plants: high-pollution coal-fired 
generating plants.
    The EPA proposed rules for power plants would require any 
newly constructed power plant to emit roughly 40?50 percent 
less carbon pollution than a traditional coal power plant, and 
the proposed carbon pollution standards for existing power 
plants will reduce U.S. power plant carbon pollution by 30 
percent compared to 2005 levels.
    The benefits will be considerable. The EPA's Clean Power 
Plan will put Americans back to work in the clean energy and 
energy efficiency sectors. Americans' electric bills would drop 
by roughly 8 percent in 2030, according to an EPA analysis. The 
reduction in household and business savings across the country 
would amount to more than 37 billion dollars in 2020, according 
to an analysis conducted by ICF International.
    An NRDC study found that the EPA's proposed carbon 
pollution limits will create as many as 274,000 energy 
efficiency jobs. These are good jobs that cannot be outsourced, 
reducing pollution and saving working families significant 
amounts of money.
    We would dramatically improve America's energy independence 
and national security. By transitioning away from fossil fuels 
and toward sustainable domestic energy sources, we will 
permanently shed our dependency on energy imports.
    And perhaps most importantly, the EPA's proposed carbon 
pollution limits will result in a significant reduction of the 
greenhouse gas emissions that are causing climate change.
    The American public overwhelmingly supports government 
action to curb global warming, as a New York Times/Stanford 
University poll just 2 weeks reported. Although an enormous 
percentage of Democrats hold that view, the poll found that 
more than half of Republicans shared this view, as well. Nor is 
there a debate about the science itself, despite the best 
efforts of the fossil fuel industry to inject doubt into the 
conversation.
    Just as the American public believes in science, the 
enormous threats posed by climate change, and clear government 
action to reduce carbon pollution, today I express my strong 
support for the EPA's proposed carbon pollution limits.

    The Chair. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I want to followup on the Senators from West Virginia and 
South Dakota in regard to the baselines.
    I feel the 2012 baseline is arbitrary. You have a 
complicated formula to determine the targets the States must 
meet. In Arkansas, because we have a new coal power plant not 
online until December 2012, it really doesn't accurately 
represent where Arkansas is.
    We are going to be in a situation where we are six or seven 
on the list. In reality, because of the formula descriptions, 
it is really two or three. The bottom line is you talk about 
opportunities for States to cut emissions. That is true but the 
reality is, the electricity bill for the average person in 
Arkansas, people on fixed incomes, single moms, things like 
that, is going to significantly increase.
    I would like you to look at the 2012 baseline and look at 
the catch-22 situations you are putting States in, like 
Arkansas and it sounds like South Dakota is in the same 
situation. I would like you to commit to work out the targets 
in that regard. I disagree totally with the rule but at least 
it could be fair.
    Ms. McCabe. We have had a number of discussions about 
Arkansas' situation. In particular the 2012 issue has been 
brought up by a number of States. In our Notice of Data 
Availability we put out last fall, we included information from 
2010 and 2011 so people could take a look at how that might 
make a difference, looking at different years.
    We are very open to hearing those concerns and trying to 
work them through.
    Senator Boozman. The other thing I would like to discuss is 
reliability. You talk a lot about costs and things. Are you 
familiar with Southwest Power Pool?
    Ms. McCabe. Yes.
    Senator Boozman. For those who aren't, Southwest Power Pool 
is mandated by FERC to ensure reliable supplies of power, 
adequate transmission infrastructure and competitive wholesale 
prices of electricity.
    I think you would agree that they are the folks that when 
you flip the switch, the electricity comes on. As a result of 
that, if they don't do a good job, if they don't provide 
reliable power, then they pay fines and are held responsible to 
the Federal Government.
    I think you would also agree they are non-partisan. It is 
just an agency that is doing its best to make things work. They 
reviewed your mandates and produced a reliability impact 
assessment. Have you reviewed that?
    Ms. McCabe. Not that one specifically, Senator, but I am 
aware they have done that.
    Senator Boozman. I really think you should. I think it is 
important. They found significant new generating capacity not 
currently planned will be needed to replace the retirements 
that EPA is predicting, about 9,000 megawatts in our region 
alone by 2020.
    Significant new transmission infrastructure will be needed. 
It currently takes up to eight and a half years to study, plan 
and construct transmission and costs up to $2.3 million per 
mile of new transmission.
    Their scenario is such that it is going to be very, very 
difficult to do as you are proposing without it affecting 
reliability. They have come up with four things they have asked 
you to do. I think they are very, very reasonable.
    First, they recommend a series of technical conferences 
jointly sponsored by the EPA and the Federal Energy Regulatory 
Commission focusing on the impacts on regional markets and 
power system reliability.
    My question to you is, would you agree to do that? To me, 
that is a very common sense approach. Today, we have heard a 
lot of talk that we need to do something. We need to do the 
right thing. Would you actually commit to doing that, getting 
the groups together and talking about the unintended 
consequences we might see?
    Ms. McCabe. Actually, those technical conferences are 
already scheduled, Senator. The first one will happen next 
week. There are several more around the Country.
    Senator Boozman. Very good.
    Second, they recommend a detailed, comprehensive and 
independent study of the North American Bulk Power System 
conducted by the North American Electric Reliability 
Corporation before EPA adopts its final rules.
    Again, would you consider going forward with getting a 
good, independent study to address the potential unintended 
consequences that Southwest Power Pool and I think several of 
the other independent systems are concerned about?
    Ms. McCabe. I believe that NAERC is already doing that kind 
of work and has put out some information.
    I want to note that until the States decide what they 
intend to do by way of compliance, it is really not possible to 
do a real reliability study. What is good about the 
conversations that are happening and the work SPP and others 
are doing is they are doing exactly what you described their 
job to be, which is thinking ahead, looking ahead, planning, 
thinking about contingencies, thinking about how things might 
roll out, whatever the incoming factors are, whether it is an 
EPA rule, anticipating weather events that could affect the 
power system, or shifts in use of fuels based on anticipated 
prices.
    Those kinds of conversations are exactly what should be 
happening and what is happening.
    Senator Boozman. To the study of Southwest Power Pool 
coming up with 9,000 megawatts and the difficulty in 
construction, I would also add the difficulty in getting 
easements and all of the hassle that goes with that. One of 
their recommendations is to extend the compliance schedule by 5 
years.
    Ms. McCabe. We have heard that not just from them but from 
others. We have also heard concerns, as I mentioned earlier, 
about the interim compliance date of 2020. That is causing a 
lot of anxiety, less than the ultimate compliance date.
    Senator Boozman. Is it causing enough anxiety that you are 
going to do something?
    Ms. McCabe. We are looking very, very closely at it, 
Senator.
    Senator Boozman. The last thing they recommend is you adopt 
reliability safety valves recommended by the independent system 
operators and regional transmission organizations.
    Ms. McCabe. That is an idea that several people and 
organizations have raised. That is another thing we are looking 
at very closely.
    Senator Boozman. I am very much opposed to the rule but I 
do think you need to really look at the reliability and the 
impact it is going to have and the significant impact.
    I know you mentioned States will have the ability to reduce 
their footprint. The reality is at the end of the day, lots of 
people are going to have significantly increased utility bills 
as a result of the regulation. I think there is pretty good 
data to show it is all pain and very limited gain.
    Thank you, Mr. Chairman.
    The Chair. Thank you, Senator Boozman.
    I do have 2 minutes remaining. I want to make a couple 
comments.
    First of all, don't forget not only is it the tax increase, 
it is the most regressive tax increase that you can have. These 
are the people who have to have their homes. That seems to have 
gone unnoticed, the regressive nature of this.
    When Senator Capito asked a question about the 32 states, 
these are the States who are rejecting this. These States have 
actually said they cannot comply with it and some of them will 
not. Even Professor Laurence Tribe of Harvard recently stated 
the proposal is unconstitutional.
    Senator Capito asked the question, what happens if they 
don't do a SIP? Your response was, they would be forced to take 
a FIP, correct?
    Ms. McCabe. That is what the Clean Air Act says.
    The Chair. What enforcement authority do you have to do 
that? You can't take away their highway funds. What are you 
planning to do to coerce them to do something that is 
unconstitutional that they don't want to do?
    Ms. McCabe. First, I would respectfully disagree that the 
program is unconstitutional. There are a variety of opinions 
out there. Professor Tribe's is one.
    The Clean Air Act says if a State does not go forward with 
a State plan, then EPA would put in place a Federal plan.
    The Chair. It is the enforcement I was asking about. I am 
running out of time.
    Let me conclude with this. There are certain 
incontrovertible facts that we have dealt with. One, this is a 
proposal that the States reject. There it is right there. They 
reject it.
    It ignores the will of Congress. You can argue the 
different times it has come up. It has never passed. The type 
of regulation that would come through a bill that was 
introduced--as I mentioned the first was not by a Democrat, it 
was by a Republican in 2002--it was rejected.
    They cannot do it by the support of people who are 
answerable to the people, so they have to go to the unelected 
bureaucrats to do it. That is why they are trying to do it 
through regulation because they cannot do it through 
legislation.
    The third thing is it relies on unreasonable assumptions. 
You saw the other chart we had up here a minute ago. If you 
look at it and use common sense, this is not reliable. It will 
cost millions and increase our energy bills.
    Senator Boozman is right, it is going to be on those who 
can afford it the least. Then, if all of that happens, if all 
that is correct, in all the hysteria and all the talk about the 
science, even if that were true, it still is not going to 
reduce the CO<INF>2</INF> emissions worldwide.
    We heard that not from people on my side or any other side 
except we have heard that from the first director of the EPA in 
response to our questions and in response to a House member.
    These things are out there. I know this has become a 
religion and I know we will have a lot more discussions about 
it. We are going to do what we can to keep my people in 
Oklahoma from incurring the largest tax increase in history for 
something that is not going to be corrected.
    Senator Boxer. May I put something in the record? May I ask 
for 30 seconds?
    The Chair. Yes, not 30 seconds because I have to have the 
last word.
    Senator Boxer. You can have the last word after I do my 30 
seconds.
    The Chair. Put something in the record.
    Senator Boxer. I will. I am asking unanimous consent that I 
have 30 seconds and you can have whatever time you want. Is 
that fair?
    The Chair. The answer is no. Go ahead and put that in.
    Senator Boxer. Then I will have a press conference 
immediately afterwards to tell you what he is stifling me from 
doing.
    I want to put in information from the U.S. Energy 
Information Administration showing that California's 
electricity bill is far lower than Oklahoma's and that we are 
prospering because we have taken on climate change and have 
cheaper costs than they do in many other States.
    The Chair. Without objection, that will be made a part of 
the record.
    [The referenced information follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you.
    The Chair. We are adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

             Statement of Hon Jeff Sessions, U.S. Senator 
                       from the State of Alabama

    Thank you Chairman Inhofe for holding today's hearing. I am 
pleased to see that the Committee is conducting important 
oversight over the Administration's unprecedented climate 
policies. These regulations present yet another instance where 
the Obama administration is seeking to impose its regulatory 
will on the American people, regardless of what the law or 
Congress has said, and regardless of the costs to struggling 
families and workers.
    It's important to note the alarmism surrounding the 
President's proposed carbon emissions regulations. For example, 
our witness today, Ms. Janet McCabe--the Acting Assistant 
Administrator for EPA's Office of Air and Radiation, claims 
that if climate change is ``left unchecked, it will have 
devastating impacts on the United States and the planet.''
    In reality, the scare tactics used by EPA are not working 
with the American people, and the specific warnings put forth 
by the Administration and others are not coming to fruition as 
predicted. The facts are dramatic. For example, in the Wall 
Street Journal last week, Bjorn Lomborg--director of the 
Copenhagen Consensus Center and who testified before the Clean 
Air and Nuclear Safety Subcommittee last Congress--wrote about 
studies which show that in recent years, there have been fewer 
droughts, decreased hurricane damage, and only a small rise in 
temperatures that is 90 percent less than what many climate 
models had predicted. Dr. Lomborg suggested that ``the 
narrative that the world's climate is changing from bad to 
worse is unhelpful alarmism.''
    The costs for these unilateral policies are truly 
astounding. The Heritage Foundation estimates that the that 
there will be approximately $1.47 trillion in lost national 
income by 2030. These costs are certain to hammer middle-class 
workers who are already struggling to survive this weak job 
market. Worse yet, the Administration is fully aware of nuclear 
energy as a more cost-effective way to pursue its carbon 
emissions goals, but has consistently put up roadblocks to this 
common-sense approach.
    At bottom, the proposed regulations that are before the 
Committee today will harm the poor, the middle-class, and the 
elderly while doing virtually nothing to change the trajectory 
of global climate trends. EPA's climate policies are dangerous 
and misguided, and I am glad the Committee has committed to 
conducting important oversight early on during this Congress.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
